<html>
<title> - H.R. 3266 FASTER AND SMARTER FUNDING FOR FIRST RESPONDERS ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 H.R. 3266, FASTER AND SMARTER FUNDING FOR FIRST RESPONDERS ACT OF 2003

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON EMERGENCY PREPAREDNESS AND RESPONSE

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2003

                               __________

                           Serial No. 108-31

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
21-511                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY

                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York            New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                    District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, Jr., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona               U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

               DAVID H. SCHANZER, Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

                                 ______

          Subcommittee on Emergency Preparedness and Response

                    John Shadegg, Arizona, Chairman

Curt Weldon, Pennsylvania, Vice      Bennie G. Thompson, Mississippi
Chairman                             Jane Harman, California
W.J. ``Billy'' Tauzin, Louisiana     Benjamin L. Cardin, Maryland
Christopher Shays, Connecticut       Peter A. DeFazio, Oregon
Dave Camp, Michigan                  Nita M. Lowey, New York
Lincoln Diaz-Balart, Florida         Eleanor Holmes Norton, District of 
Peter King, New York                 Columbia
Mark Souder, Indiana                 Bill Pascrell, Jr., New Jersey
Mac Thornberry, Texas                Donna M. Christensen, U.S. Virgin 
Jim Gibbons, Nevada                  Islands
Kay Granger, Texas                   Bob Etheridge, North Carolina
Pete Sessions, Texas                 Ken Lucas, Kentucky
Christopher Cox, California, ex      Jim Turner, Texas, ex officio
officio

                                  (ii)


                                CONTENTS

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John B. Shadegg, a Representative in Congress from 
  the State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness and Response......................................     1
The Honorable Bennie Thompson, a Representative in Congress from 
  the State of Mississippi, and Ranking Member, Subcommittee on 
  Emergency Preparedness and Response............................     2
The Honorable Christopher Cox, a Representative in Congress from 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     4
The Honorable Jim Turner, a Representative in Congress from the 
  State of Texas.................................................     6
The Honorable Benjamin L. Cardin, a Representative in Congress 
  from the State of Maryland.....................................    14
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................    38
The Honorable Barney Frank, a Representative in Congresss from 
  the State Massachusetts........................................    10
The Honorable Jim Gibbons, a Representative in Congress from the 
  State of Nevada................................................    10
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey...................................    12
The Honorable Christopher Shays, a Representative in Congress 
  from the State of Connecticut..................................    11
The Honorable Curt Weldon, a Representative in Congress from the 
  State of Pennsylvania..........................................     8

                               WITNESSES

The Honorable James A. Garner, Mayor of Hempstead, New York, 
  President, The United States Conference of Mayors
  Oral Statement.................................................    15
  Prepared Statement.............................................    18
Colonel Randy Larsen (Retired), Founder and CEO, Homeland 
  Security Associates, Former Director of Institute of Homeland 
  Security, Former Chairman of Military Department at the 
  National War College
  Oral Statement.................................................    19
  Prepared Statement.............................................    22
Mr. Robert Latham, Director, Mississippi Emergency Management 
  Agency
  Oral Statement.................................................    24
  Prepared Statement.............................................    26

                                APPENDIX
                   Material Submitted for the Record

Questions and Responses from the Honorable James A. Garner.......    49
Questions and Responses from Colonel Randy Larsen (Retired)......    49
Questions and Responses from Mr. Robert Latham...................    50

 
 H.R. 3266 FASTER AND SMARTER FUNDING FOR FIRST RESPONDERS ACT OF 2003

                              ----------                              


                       Thursday, October 16, 2003

                          House of Representatives,
                          Subcommittee on Emergency
                         Preparedness and Response,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 4:05 p.m., in 
Room 2175, Rayburn House Office Building, Hon. John B. Shadegg 
[chairman of the subcommittee] presiding.
    Present: Representatives Shadegg, Tauzin, Shays, Diaz-
Balart, Gibbons, Cox [ex officio], Thompson, Cardin, Norton, 
Pascrell, Etheridge, Lucas, and Turner [ex officio].
    Also Present: Representatives Dunn and Frank.
    Mr. Shadegg. The committee will come to order.
    I want to welcome our witnesses. I understand one is still 
downstairs, but in the interest of proceeding in a timely 
fashion, I think we should get started and begin with opening 
statements.
    Today our subcommittee will be examining the Faster and 
Smarter Funding for First Responders Act, which has been 
introduced by full committee Chairman Cox.
    I think there has been a high level of frustration among 
members on both sides of the aisle about how long it has taken 
for the large amounts of money which we have appropriated here 
in Congress for our Nation's homeland security needs and first 
responders to end up in the hands of those who can put it to 
its intended use. The States claim they have allocated the 
money, but many cities claim they have yet to see a penny. 
Clearly these mixed messages send a message themselves to us in 
Congress that it is time to look at changing the homeland 
security grant-making process to hopefully make it smoother, 
smarter, and more agile in responding to new and different 
threats that arise.
    As we examine changing the homeland security grant process, 
it is clear that we need to take a look at both regional 
approaches and at threat-based formulas, two of the major 
components of H.R. 3266. We can neither afford from a financial 
perspective nor a public policy perspective to provide new 
equipment for each and every fire and police department in the 
country. Communities are going to need to cooperate in their 
war on terrorism by working together to pool resources and to 
regionalize plans. Unfortunately, politics has long stood in 
the way of such cooperation at the local level. As Kwame 
Kilpatrick, Mayor of Detroit, testified at a Senate Government 
Affairs hearing, quote: These plans can't be piecemeal, and 
that is why I believe so much money is being wasted when it 
comes to our State, because we want to give money to this plan 
or that plan instead of forcing the regions around the State of 
Michigan to get together and deal with this in a comprehensive 
form.
    We also need to look at making sure that we are devoting 
this homeland security money in a smarter way so it actually 
gets to the areas facing the largest threat.
    I was shocked, as I am sure many of you were, to read in 
USA Today, in an article from July, in which we learned that an 
Oak Bluffs, Massachusetts harbor master claimed, quote: Quite 
honestly, I don't know what we are going to do, but you don't 
turn down grant money.
    That is not a good indication that the system we have in 
place is working well.
    Last week, our full committee received testimony that 
epitomizes how, under the current grant formula, we are likely 
sending money to areas where there is little or limited risk of 
a terrorist attack. Michele Flournoy from CSIS stated: Without 
a regular, disciplined, and comprehensive threat and 
vulnerability assessment process that considers both the 
probability of various attacks and the severity of their 
consequences, decisionmakers will have little analytic basis 
for making tough strategy choices about where to place 
emphasis, where to accept or manage the degree of risk, and how 
best to allocate resources to improve America's securities.
    We need to determine the actual risk involved and figure 
out how our funding choices will either eliminate that risk or 
mitigate it to the greatest degree possible. We have to be 
smarter than our adversaries and capitalize on our 
intelligence-gathering capability and technological advantages.
    I commend Chairman Cox for this forward-thinking section of 
the bill. We look forward to learning more about the proposal 
today, and I look forward to input from our excellent panel of 
witnesses. It seems to me that it is absolutely essential that 
Congress spend these monies wisely, and that we get them into 
the hands of the first responders who need those monies, and 
that we prioritize and allocate them as strategically as 
humanly possible. And so I think this legislation and this 
discussion, which will go on regarding this legislation and 
other pieces of legislation that address the same topic, is 
critically important for this Congress to act on and act on 
very quickly. And I am pleased the issue is before the 
subcommittee.
    It is now my pleasure to turn to the gentleman from 
Mississippi, the Ranking Member of this subcommittee, Mr. 
Thompson, for his opening statement.
    Mr. Thompson. Thank you, Mr. Chairman. First, I would like 
to welcome Mr. Robert Latham, the Director of Emergency 
Management for the State of Mississippi, for joining us today. 
And I look forward to his perspective on the preparedness needs 
of my home State which includes a diverse urban, suburban, 
rural, and agricultural community.
    But, Mr. Chairman, I must express my disagreement with the 
focus of this hearing. As the majority is well aware, Democrats 
on the Homeland Security Committee have introduced 
comprehensive first responder legislation entitled the Preparer 
Act. This legislation, introduced on September 24th, and now 
co-sponsored by 141 Members of Congress including the Ranking 
Members of the 10 standing committees of the House, addresses 
issues similar to those in Chairman Cox's bill. Although I 
understand that next week's full committee hearing on first 
responder legislation will be broader in scope, it seems to me 
that the members of both sides of this subcommittee would be 
better served by a hearing on both legislative proposals.
    Having said that, I would like to point out some key 
differences between the two proposals and explain why the 
Preparer Act better addresses the needs of our first responder 
community.
    There are three key principles embodied in the Preparer Act 
that distinguish it from Chairman Cox's legislation. First, the 
Preparer Act protects all communities. Our legislation 
recognizes that in the aftermath of September 11th, every 
community must be better prepared for terrorist attacks. This 
includes urban, suburban, rural, and agricultural communities.
    Under Chairman Cox's proposal, it appears that we will 
create grant winners and losers. Grant applications will be 
submitted and grantees will have to depend on the strength of 
their applications and the untested threat and intelligence 
analysis capabilities of the Department of Homeland Security in 
order to receive a grant. To me it sounds too much like buying 
a lottery ticket and taking a chance.
    Further, in 1995, did any of us consider Oklahoma City to 
be under an extremist terrorist threat? If the Chairman's 
proposal was in law at that time, I am not sure that Oklahoma 
City would have received grant funds, but it is certain that 
the city would have benefitted from enhanced preparedness 
capability.
    Second, the Preparer Act will result in more robust 
planning and coordination within the States. In previous 
hearings, we have heard testimony about neighboring communities 
buying the same equipment, resulting in unnecessary expenditure 
and duplicative requirements. By conducting bottom-up 
assessments and coordinating preparedness needs at the local, 
regional, and state levels, the Preparer Act will distribute 
funding on a rational cooperative manner.
    Under the Chairman's bill, any State or eligible region can 
apply for grant funds. Our question is DHS's ability to process 
a seemingly unlimited number of grant applications.
    Further, how will be applications be coordinated? How does 
the Chairman's proposal resolve the problem of overlapping and 
duplicative capabilities?
    Third, the Preparer Act recognizes that our first responder 
community plays a most critical role in determining our 
preparedness needs. That is why the legislation creates an 
independent task force to develop and provide to our 
communities the tools they need to determine what capabilities 
they have today, what capabilities they need to be truly 
prepared, and what resources are required to build these 
capabilities. I can think of no better advisers on this issue 
than our police, firefighters, emergency medical services, 
hospital personnel, and others who face this problem every day.
    There are some areas of agreement, Mr. Chairman, between 
the Preparer Act and the Chairman's proposal, including 
revisions to the homeland security advisory system and the 
preservation of traditional first responder grant programs like 
the fire grant. We will continue to work with the majority to 
find other areas of agreement, and hopefully pass a bipartisan 
bill that will enhance this Nation's preparedness for 
terrorism. However, our efforts must enhance preparedness 
throughout this Nation. We cannot shift resources from day to 
day based on ever-changing threat information. The only way to 
truly prepare this Nation is to recognize the need to build 
capabilities in every town, city, county, and State. We owe 
this to our emergency responders, and we need to move faster in 
our efforts to do so.
    Mr. Shadegg. I thank the gentleman for his opening 
statement and now call upon the Chairman of the full committee 
for his opening statement. Mr. Cox.
    Mr. Cox. Thank you, Chairman Shadegg. And I assure the 
Ranking Member that the majority and the minority will work 
together. It is our aim to achieve bipartisan legislation.
    The questions that the gentleman raises are legitimate 
ones, and I believe that they can all be addressed. I also 
think that it is a happy occurrence that the legislation 
introduced separately by the minority and the majority are, for 
the most part, complementary rather than outright contradicting 
one another. And I think these pieces will fit together very 
nicely, at least potentially; but it will require a fair amount 
of work, and we are starting that process today.
    I think that Congress has recognized, and certainly this 
committee has recognized, the vital role that first responders 
play from the moment of our horror at the events of September 
11th. But in particular, this committee, through our hearings 
in Washington and our field hearings around the country, has 
heard the message loudly and clearly that the monies, including 
over $20 billion that the Congress has appropriated since 9/11 
explicitly for first responders, that we intend to benefit 
firefighters, police, and emergency services personnel, medical 
workers, paramedics and so on, that that money is not getting 
to its intended destination, or at least it is not getting 
there nearly fast enough. The more than 1,000 percent increase 
in first responder funding since 9/11 evidently is not enough 
to solve the problem. We have got to be smarter and faster 
about getting money to first responders.
    In the $30 billion appropriation that the President just 
signed for the Department of Homeland Security, its first 
appropriation ever, fully 4.2 billion is earmarked for first 
responders. But it won't do nearly enough good if that money 
gets stuck in the pipeline, if that money doesn't get to where 
it is most needed. We have got to work harder to ensure that 
homeland security grants are distributed quickly to the people 
who need the most.
    Our grant-making process for first responders, however, was 
built before September 11th. It was built for a world where 
traditional roles of first responders were more narrowly 
defined and where they were not focused on counterterrorism.
    The National Conference of Mayors, whose president, Mayor 
James Garner, is here with us today, recognized this problem. 
In the Conference's report titled ``Tracking Homeland Security 
Funds Sent to the 50 States,'' the mayors note that 90 percent 
of cities have not received funds from the country's largest 
homeland security program. In addition, over half of the cities 
either haven't been consulted by their state homeland security 
agencies or haven't had an opportunity to influence state 
decisionmaking about how to use and distribute funding.
    I look forward to hearing Mayor Garner speak more about the 
results of this survey. It is abundantly clear already that 
much of the $20 billion that Congress has appropriated for 
first responders isn't reaching them.
    Federal funds need to be directed to areas where we are 
most at risk, but today too much of the homeland security grant 
monies are allocated by political formula, not by authoritative 
risk assessment that matches threat with vulnerability.
    Chairman Shadegg described the surprise of the harbor 
master in Oak Bluffs, Massachusetts when he received $900,000 
in homeland security grants and didn't know what to do with it. 
A similar story was repeated in Christian County, Kentucky, 
population 100,000, when they learned they were getting $36,800 
for high-tech safety equipment. The local emergency services 
director didn't want to look a gift horse in the mouth, but 
said that the high-tech equipment didn't particularly suit the 
more routine needs of his small rural community. We need a 
threat-based formula that will eliminate such waste and 
potential abuse.
    H.R. 3266, the Faster and Smarter Funding for First 
Responders Act, addresses these problems. To expedite delivery 
of funding, both States and regions could apply for grants. 
When States receive Federal funds, the bill requires 80 percent 
of the money to be passed to locals within 45 days. The bill 
also builds in penalties to States that do not comply with 
these requirements.
    In allowing regions to apply directly for grants, we are 
taking into account the fact that our country's artificial 
State boundaries do not necessarily represent logical, sensible 
homeland security planning areas. Evacuating the National 
Capital Region, for example, would involve multiple States. A 
grant under this legislation could be made to a multistate 
region. As a result, we could avoid problems from money 
trickling in from the Maryland and Virginia governments because 
they and only they could apply for funds directly from DHS.
    In California where we have 30 million people, the State 
could apply for monies from regions within California. Los 
Angeles and Orange Counties, for example, which already have an 
extensive system of mutual aid agreements among the cities and 
among the counties, could continue to build their partnership 
and apply jointly for grants. When recently this committee 
visited the Puget Sound area, we heard the same plea from first 
responders there: Focus on regional solutions. Regional 
cooperation is fundamental to the success of the President's 
homeland security strategy. We must encourage it by ensuring 
that funds earmarked for regions do not get bogged down in 
layers of bureaucracy.
    Today more than ever we must maximize the yield for every 
dollar we invest in homeland security, and so this legislation 
charges DHS to prioritize threat and vulnerability in 
distributing grants to the exclusion of political formulas. 
Since 9/11, we have identified serious problems with our grant-
making process, and with this legislation we move towards 
solutions.
    I look forward to hearing the thoughts of our witnesses on 
this bill and on the minority bill, and to working with the 
Ranking Members who have introduced separate legislation with 
other members of this committee to ensure that we fix the 
inefficiencies in our grant-making process and our funding of 
first responders becomes both faster and smarter.
    Thank you, Mr. Chairman.
    Mr. Shadegg. The Chair will now call upon Mr. Turner of 
Texas, the Ranking Member of the full committee, for his 
opening statement.
    Mr. Turner. Thank you, Mr. Chairman.
    I think it is clear to all of us that fighting and winning 
the war on terror requires a strong and sustained effort both 
overseas and here at home. Just 24 hours ago, I returned from a 
visit with our troops on the front lines in Iraq, and I must 
say that the commitment, dedication, and bravery exhibited by 
those troops in the face of many threats was an inspiration to 
me, and it would be to you as well.
    Our troops in Iraq and in other places like Afghanistan 
have been called on to fight on the front lines of this war on 
terror. The effectiveness of our troops is the result of 
decades of building capabilities. We buy them the best 
equipment, we train them extensively, and they spend countless 
hours planning and working to execute their responsibilities.
    We are here today to ensure that those on the front line 
here at home, America's first responders, are also fully 
prepared to respond to and to recover from a catastrophic act 
of terrorism. This is a new mission for first responders. 
Billions of dollars have been spent since the Cold War on 
building our Armed Forces. It will take time and focus to build 
our capabilities for homeland defense.
    Just a month or so ago, the Council on Foreign Relations 
assembled a bipartisan, expert task force led by former United 
States Senator Warren Rudman. They reported that America's 
first responders were, and I quote, drastically underfunded and 
dangerously unprepared.
    After 18 months of listening to America's firefighters, 
police, and emergency workers state and restate their need for 
better training and better equipment, 23 members of this 
committee and 142 Members of the full House introduced 
legislation, H.R. 3158, the Prepare Act, to address the current 
problems of our first responders. The legislation that we 
introduced has four major goals.
    First, we need to create a task force to identify what our 
communities need across the country to prevent, prepare for, 
and respond to terrorist attacks. This must be a bottoms-up 
process involving local officials and local first responders. 
Under our current system, we are spending an arbitrary amount 
of money every year with no defined goals; no benchmarks by 
which we can measure progress toward protecting our communities 
both large and small.
    Secondly, the Prepare Act seeks to move our entire country 
forward by reaching a level of--a minimum level of preparedness 
within a defined period of time. We recognize that areas that 
face a higher threat of attack and have sustained or 
substantial vulnerabilities should and must receive a greater 
proportion of available funding. But we also recognize that no 
community in America is as prepared as it should be to meet the 
threat of global terrorism in the 21st century.
    As Ranking Member Thompson mentioned, no one could have 
foreseen that Oklahoma City would be targeted by a terrorist 
act, and Oklahoma City is not likely to appear today on 
anyone's list of high-threat terrorist targets. The Prepare Act 
recognizes that terrorism by its very nature is unpredictable, 
and therefore the legislation would seek to increase the 
preparedness of every community in America.
    Third, the Prepare Act requires planning and coordination 
to ensure that every community in America has access to the 
emergency response services they need, while at the same time 
preventing duplication and waste. I commend the Chairman on his 
vision for regional funding. I think it is an area of agreement 
between the two of us and the members on both sides of the 
aisle. Unfortunately, nothing in our current grant program 
prevents neighboring communities from developing, for example, 
two HAZMAT units when one will do. We need to ensure that 
scarce resources are spent wisely by requiring, whenever 
possible, services to be shared at the regional, State, and 
even multistate level.
    And, finally, the Prepare Act recognizes that difficulties 
with the grant programs are not the only challenge facing our 
first responders. Our legislation would address the problems of 
interoperability of communications equipment, establish 
training and equipment guidelines so that our first responders 
know what to purchase, and would take additional steps such as 
reforming the homeland security advisory system.
    Chairman Cox has introduced H.R. 3266, the subject of the 
hearing today, and I compliment the Chairman for his efforts 
and look forward to working with him over the coming weeks to 
develop a bipartisan bill. Both bills have the same ultimate 
goal, to direct funding to our first responder communities as 
quickly as possible and to direct resources where they are 
needed the most. We go about achieving this goal in different 
ways, which I hope we will be discussing today.
    Chairman Cox's bill would base preparedness funding 
exclusively upon a snapshot of the threat faced by the State or 
region applying for the grant. While this is an interesting and 
appealing concept, it also raises some difficult issues.
    First, since all of our communities continue to have 
preparedness needs, how can we attempt to meet their needs 
while at the same time targeting directed resources to the 
communities with the threats of the moment?
    Second, threat information today may not be specific enough 
to form the basis for a competitive grant program. I always 
have admired Mr. Weldon's leadership in the fire grant program. 
It has provided a basic level of preparedness to defend against 
the threat of fires in communities all across America. But 
predicting where those fires will occur would in fact be an 
impossible task, and we may face the same difficulty in dealing 
with the threat of terrorist attack. How can we, for example, 
measure with precision whether Houston faces a greater threat 
than Orange County? And won't this change from week to week or 
from year to year?
    The last three times the Department of Homeland Security 
has raised the threat level, it has been in response to a 
nonspecific threat. So because we do not know for sure where 
terrorists intend to attack, doesn't it make sense to build our 
capabilities nationwide in light of the threats and 
vulnerabilities we face to protect all of our communities to 
the best of our ability?
    And, finally, how is it possible, with a grant program 
based entirely on threat, to encourage and reward comprehensive 
planning and coordination between neighboring communities to 
maximize the value of taxpayer dollars and avoid duplication?
    Mr. Chairman, our enemies in the war on terror plot and 
plan every day. We could not have foreseen the depths of their 
depravity in slamming airliners into skyscrapers and killing 
thousands of civilians. Threats to our Nation do and will 
continue to change daily. And so in pursuit of our mission to 
protect the American people, we must ensure that first 
responders have the capability and the flexibility to protect 
our communities. What we have proposed in the Prepare Act is 
that we must move faster and stronger to protect all of 
America's communities from the threat of terrorist attack. We 
must pledge that when it comes to protecting the American 
people, no community will be left behind.
    Thank you, Mr. Chairman, for scheduling this hearing today. 
I look forward to working with you and Chairman Cox to ensure 
that we accomplish the task that we all agree upon; and that 
is, we must make America safe and secure from terrorist attack. 
Thank you, Mr. Chairman.
    Mr. Shadegg. I thank the gentleman for his thoughtful 
statement.
    I would now call upon the Vice Chairman of this 
subcommittee, the gentleman from Pennsylvania, Mr. Weldon.
    Mr. Weldon. Thank you, Mr. Chairman. I will try to make it 
brief and just congratulate both sides for putting in place 
legislation that addresses an issue that this country avoided 
and ignored for the first 225 years of our country's existence, 
and that is our domestic defenders, our first responders.
    Both pieces of legislation have good points and have areas 
that we can focus on. I am particularly pleased with the 
Chairman's mark. Both pieces of legislation specifically exempt 
the assistance to firefighters grant program which was a 
strongly bipartisan effort. Mr. Pascrell was a major leader on 
this, as were a number of other members. And this was enacted 
in the year 2000, before 9/11, to focus on the support for our 
first responder community, and I would argue it is probably the 
most successful program ever developed in the history of this 
Congress. There are no middle people, there is no bureaucracy 
at the State or country level; 32,000 fire and EMS departments 
across the country apply directly on-line during a 30-day 
period in April, and those applications when they come in are 
evaluated by a board of their peers, not by politicians in 
Washington, not by bureaucrats in Washington, but by a peer 
review process of first responders from across America.
    And, remember, 85 percent of those 32,000 organized 
departments are volunteer, and, as a result of that effort and 
the funding put forth in a bipartisan way, in the past 3 years 
we have been able to put $1.1 billion on the streets of almost 
every American city. And we have over 5,000 grants. The first 
year we had over 30,000 applications from 20,000 departments. 
And both pieces of legislation see fit to keep that process in 
place because it is working, and I commend them.
    In the process of putting together what Chairman Cox has 
said is a key priority, we need to make sure that bureaucracies 
at the State and Federal level, at the State and county, while 
coordinating, are not taking away precious dollars that should 
be going down to the first responders, the group that has to 
respond to these incidents to make sure that we are not 
building dynasties in our State capitol buildings or our county 
courthouses, but rather getting the money down to where the 
need really is.
    The second thing I want to commend about the bills is there 
a focus on each on the number one issue for our first 
responder. The number one issue is a totally inoperable 
communications system domestically. We have none. This is not 
new after 9/11. Every disaster that I have been on in the past 
17 years, communication has been the number one problem. Chief 
Mars in Oklahoma City identified it in the Murrah Building 
bombing; Fire Commissioner Safir in New York identified it in 
1993; and we have given lip service to that problem up until 
now. We have to deal with the ability of our first responder 
groups to talk to each other when an incident occurs. And that 
doesn't just mean money for equipment. It also means dealing 
with the issue of frequency spectrum allocation.
    Now, we tried to get this committee to deal with the Hero 
Act, which is a bipartisan bill that commits Congress to make 
available the 20 megahertz frequency spectrum to public safety 
needs. But the Energy and Commerce Committee has exerted its 
influence. Even though Chairman Cox has said he would work with 
us to do it, they said they would raise an exception and would 
block the process of this committee in dealing with this.
    But the fact that we talk about it in both bills is very 
important to the first responder. The only area, Mr. Chairman, 
I think that I want to see us focus on is a new program that is 
about to come out of the Armed Services mark conference report 
which I hope will be on the floor next week or the week after. 
Again, with bipartisan support, there is a brand-new $7.6 
billion program over 7 years to fund the hiring of police or 
firefighters and paramedics in cities across America. The key 
question for us--and this new program has strong bipartisan 
support and has passed with no objections in either the House 
or the Senate and will be a part of the final mark--is how this 
program will be administered and whether or not it will come 
under the legislation brought before us by both sides today.
    It is a vitally important program, and I would hope that as 
we develop this legislation we can find a way again to come 
together for the best interests of our firefighters and our 
paramedics and our police officers.
    So I want to thank both sides. I want to thank my 
distinguished Chairman for working with us in crafting this 
bill. I can tell you all the fire service groups are happy that 
the approach you have taken has been inclusive.
    And I want to thank Mr. Turner who has a track record of 
also working very aggressively on his side with the national 
fire and EMS groups around the country.
    Thank you, and I look forward to working with you as the 
bill unfolds.
    Mr. Shadegg. The Chair would now call upon the gentleman 
from Kentucky, based on the order of arrival, Mr. Lucas, for an 
opening statement.
    The Chair would call upon the gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman. And I will associate 
myself with my colleague and friend from Pennsylvania and his 
remarks, submit my opening statement for the record, and 
hopefully get to the witnesses soon. Thank you.
    Mr. Shadegg. The Chair would first ask unanimous consent 
for Ms. Dunn and Mr. Frank to participate in today's 
subcommittee hearing. Without objection, so ordered.
    Then I will call upon the gentleman from Massachusetts, Mr. 
Frank, for his opening statement.
    Mr. Frank. And thank you for the double courtesy, Mr. 
Chairman.
    I am glad we are here, and I appreciate the Chairman making 
it clear that we are in fact dealing with both bills, that it 
is a joint legislative hearing, and I think that is well.
    Obviously, we are all chagrined, I think, and cannot deny 
what Mayor Garner has said on behalf of the Conference of 
Mayors, mainly that things have not worked as we hoped, that 
the money hasn't gotten to where it needs to get. And I think 
there is a genuine willingness to work together on this. We 
have this continued State-versus-city problem, and I am very 
much aware of that because at the last hearing of the committee 
that I was able to attend, the Governor of Massachusetts 
defended the notion that the money should all continue to go 
through the States. And I think in the face of the evidence, 
that becomes much harder to defend. It is important to get the 
money out there and get it to the communities. And that is the 
only other point I wanted to stress.
    I want to make explicit something which we have all taken 
for granted. We are talking about money. We have apparently 
agreement that what we need to do to deal with this threat is 
to tax people and then take the money that we get in taxes and 
send it to the local governments. I know there are volunteer 
fire departments, but they don't cover the whole country. There 
aren't that many volunteer police departments. That is, we are 
talking here about the use of Federal tax money. We are talking 
about money that is collected through the Federal tax system 
and then sent to local communities. And I say that, because we 
have I think in this country a disconnect. Everybody hates 
taxes, and it is always popular with a lot of people to talk 
about cutting them. Most of the same people who dislike taxes 
are quite fond of them once they are collected and distributed.
    And the attitude here reminds me of what was once explained 
to me by a politician in Boston in 1978 when I complained about 
what I thought was an inconsistency. Everybody wants to go to 
heaven, but nobody wants to die. People want to enjoy the 
fruits, but they don't want to go through the process.
    That doesn't speak for any level of taxation or not, but it 
does for my people. That is what we talking about, tax dollars. 
And we have this particular problem, because as we have been 
trying to increase Federal funding to police and fire and 
emergency personnel and others--and of course there are other 
people on city payrolls--if you have explosions, if you have 
disruption, the public works people have to get involved. The 
people have to get out there and repair and fix things.
    The problem has been that because of national fiscal 
trends, the basic police and fire and other services have in 
many cases been subject to a loss of revenue. And it does not 
make sense on the one hand to see police and fire and other 
departments eroded in terms of their number of people by 
general fiscal problems that the States and cities are having, 
that the States are having and then pushed on the cities, and 
then say, oh, but look what we are doing on the other end.
    There are not in my experience in any local or police or 
fire department people who deal with the terrorism threat and 
people who deal with the other parts of it. The police and fire 
departments are seamless; they all work together. And if you 
have a police department or a fire department that is reduced 
in personnel because of a general fiscal crisis and a lack of 
tax revenues sufficient to support them, you cannot make up for 
that by a program that talks only about emergencies.
    That is particularly the case, because I know in the 
Chairman's bill, for example, there is a specific prohibition 
against using these Federal funds to replace the local funds. 
And, frankly, if the local funds are being cut and you get new 
Federal funds, I wouldn't want to be the one to charge you with 
enforcing that. I don't know how you would possibly do it. But 
it does, I think, undermine the general principle.
    There are, if we are to live the kind of lives we want to 
live in this country, absolutely essential needs that the 
private sector will not meet because it is not supposed to meet 
them. The private sector has its job to do, which is to 
generate wealth in the private sector. It is not charged with 
police and fire and public safety in general. We can only do 
those if we come together and have sufficient revenues through 
the tax system and provide them. And I think this is a reminder 
of them.
    And, yes, we have now before us two bills, both of which 
seem to me to say we need to send more tax money for the 
Federal level to the local people to do this essential job. I 
am all in favor of that, but I think it has to be set in 
context.
    Thank you, Mr. Chairman.
    Mr. Shadegg. Mrs. Dunn would be next. Apparently she has 
had to leave us momentarily, so I would call on the gentleman 
from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Mr. Chairman, I will forego my statement and 
insert it in the record.
    Mr. Shadegg. Thank you very much.
    The Chair would then call on the gentleman from 
Connecticut, Mr. Shays.
    Mr. Shays. Thank you. I appreciate, Mr. Chairman, you 
holding this hearing. In my capacity in the Government Reform 
Committee as chairman of the National Security Subcommittee, we 
have had a number of hearings on the whole concept of standards 
and how we allocate resources to our first responders. In 
response to the foreign affairs organization that hired Senator 
Rudman to look at how we were allocating resources, we put in 
the bill that said in 9 months we want standards. We want 
standards to know how we allocate resources. And we tried and 
we made it bipartisan with other members of the committee.
    I think it is absolutely essential that we not give out 
money before we know why we are giving out money and why they 
need it. And I hope in the process--I know Mr. Turner has 
introduced a bill that includes much more than we did--we 
include some of the requirements, we include getting the 
standards and doing it quick. And we have been doing this for a 
year. This is nothing new. I mean, we have been trying to 
determine what standards we should set up. So it is not like we 
are starting from Ground Zero.
    I hope our legislation will be looked at as well and 
incorporated in, obviously, a much more comprehensive piece. We 
need standards. We need it now. Otherwise, we are giving out 
money to people who don't need it and we are not giving money 
to people who do need it.
    Mr. Shadegg. I thank the gentleman for his opening 
statement.
    The Chair would next call on the gentleman from New Jersey, 
Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Chairman, I want to go back to something that the 
gentleman from Pennsylvania started to talk about, because I 
think it is important here. When we put the Fire Act together--
and we were very careful to wait until we reviewed every line, 
myself and Curt, Mr. Weldon, Mr. Andrews, Mr. Hoyer--we made 
sure that folks understood that that legislation and the 
legislation that we would put forth was in response to the 
basic needs of fire departments throughout the United States of 
America. The bill was put together 2 years before 9/11, as Mr. 
Weldon pointed out. The four of us struggled to get folks on 
the bill. And when we finally moved forward on it, when 
firefighters came to this great city, knocked on doors, we 
wound up with 285 signatures on the legislation. It was totally 
bipartisan, the entire political spectrum. No party had privy 
to have virtue.
    And I think it is important to understand that there were 
defined basic needs in the community, and that the firefighters 
and the emergency workers in this country had always been the 
forgotten part of the public safety equation, and they would no 
longer be. This comprehensive bill was in response to that, it 
has been a tremendous success, And the peer review has worked. 
There are many who doubted that it would.
    I trust the greatest consultants in the world, and they are 
the firefighters and EMTs. I don't know of any consultants that 
we hired--do you, Curt? And we listened to them throughout this 
Nation to discern what were their basic needs. And now we are 
going to take the second step, not in this legislation, in 
terms of personnel.
    So we have come a long way, and there are many--there has 
been a tremendous amount of distribution of need, response to 
need. But we made very, very certain that the money would go 
directly to the communities. No one, no one would be able to 
take anything off the top. I don't know any other way to say 
it, Mr. Chairman, and it has been successful for small 
communities and towns out in the middle of Montana. And I 
thought things were bad in the suburbs and the cities, and we 
found towns that didn't have a fire truck, or if they had one, 
had to push it to the fire. A very sad statement to make. 
Again, our first responders and our first-to-leave tragic 
situations.
    I think that both of these, each of these pieces of 
legislation can be melded together. I don't see why not. There 
are two or three things in each of them that I think stands 
out. The Cox legislation particularly makes it very clear that 
this would not impact on five major grant programs that we have 
voted upon, mainly--you know, not only fire grants, but the 
COPS program. You know, here we are talking about getting ready 
for emergencies, and we are standing by watching the COPS 
program disintegrate in front of our eyes, a successful program 
that has led to the decrease in crime throughout the United 
States of America since 1992, 1993.
    I think it is important that we preserve those programs and 
that we not meld what we are talking about today with what 
already exists, the Fire Act.
    Having said that, I think that we need to work on how this 
would be distributed and on what standards they would be 
distributed. And as Mr. Shays has mentioned, I think it is 
important, and I think the gentleman from Massachusetts has 
made it clear that this is our responsibility in oversight, 
much more than the States. The Federal Government has to 
respond. We are primarily entrusted with the responsibility of 
responding to emergency situations, and we will help the 
communities out in that regard.
    I think that we must work out a compromise, particularly in 
the area of who are the winners and losers, or whether we will 
respond more effectively to those communities who are at 
greater risk. I think that is something that needs to be worked 
out so that we don't go to the other extreme of a universal 
plan that will provide dollars for emergency response where 
there is no need. I think we need to be very, very careful 
along those lines.
    Forty-five percent of our firefighters lack standard 
portable radios. Now, is that with regard to terrorism? 
Absolutely not. That situation existed before 9/11. They now 
have the bands to communicate. Now, what are we doing here? It 
is 2 years-plus since 9/11, and our firefighters do not have 
the ability to communicate, and we will string this out for 
months and months and months in order to respond on the 
terrorist issue. It doesn't make sense. Over 10,000 fire 
engines in this country are over 30 years of age. And if you 
think I was kidding when I said some of them had to be pushed 
to the fire, I wasn't kidding.
    This is serious. But these are basic needs. These are basic 
needs beyond what we find ourselves in. And the world has 
changed in the last 2 years. We are expecting them to do even 
more with the little they have, and that is why the work of 
this committee is so critical, Mr. Chairman.
    I really appreciate the fact that you have brought these 
up. We are ready to act, we are ready to move, and I don't 
think we should hesitate too long, as long as we know, as long 
as we have objectives, as long as we have standards, as long as 
we can work out where we will send this money, whether it be 
direct or through some other entity.
    And I think the task force which Mr. Turner has suggested 
to oversight--I mean, that really will guarantee the first 
responders input so that they are not left on the sidelines; 
the task force, I think as you call it, I think that is 
important.
    I see no contradiction in these two pieces of legislation, 
and I look forward, Mr. Chairman, to their melding together and 
getting something done. Thank you.
    Mr. Shadegg. I thank the gentleman.
    I would now call on the gentleman from Maryland, Mr. 
Cardin, for his opening statement.
    Mr. Cardin. Thank you, Mr. Chairman.
    Let me just point out that we are very fortunate in this 
country to have the career, volunteer firemen, our police, our 
first responders. That certainly became evident to all of us 
after 9/11. We have a network in place of first responders, and 
they have carried on very well for our communities. 9/11 really 
tested their capacity to carry on their traditional roles as 
well as take on a new responsibility for homeland security.
    It has become clear to me--and I think this hearing is very 
important for us to try to bring some consensus among all of us 
as to what the Federal role should be in funding and helping 
our first responders. It became clear to me that we first have 
to provide adequate resources.
    Now, I have met with my local government officials on 
several, many occasions since 9/11, and one thing that is clear 
to me is that we need to do a better job. I agree with my 
colleagues that it is a Federal responsibility on homeland 
security. Every time we change the threat level on the coding 
system, it costs our local governments money. It is more 
overtime. It is more the use of our equipment. And there is a 
cost associated with that, and yet that cost is borne locally, 
not through the use of Federal resources. I think we need to 
take a look at that.
    I agree with my colleagues that I think the two bills that 
are before us offer a lot of similarity, and I hope that we 
will be able to work out the differences here. I do think our 
funding formula needs to be sensitive to risk. I agree with 
Chairman Cox in that regard. Communities have different risk 
levels, and that needs to be sensitive in the funding formulas 
that we use. However, I would hope that we would have 
predictable funding to our local governments. I don't think we 
should just do it on competitive grants. I think it has to be a 
predictable funding source that takes into consideration the 
risk levels of the different communities around the Nation.
    And then I do think we need to work out this problem 
between our State and local governments. I have met many times 
with my State government and with my local governments, and I 
have heard every complaint about it is a long time getting the 
money through, et cetera, et cetera. And then I meet with the 
State and they go through the process with me.
    And I must tell you, in Maryland, our Governor is not 
opposed to the money going directly to the local governments if 
that will provide additional resources and help to our local 
governments. And so I think that we should be able to figure 
out a way that we can accomplish this in a way that we get the 
money as quickly as possible to the people who need it, to the 
units that need it, without the competition factor and worrying 
about who controls the money. We need to do a better job in all 
that.
    And I think this hearing provides the framework for us to 
come together as a committee. There has clearly been an 
interest in this Congress among Democrats and Republicans to 
support our first responders and to do it in the most effective 
way. We are willing to use the resources that are necessary, 
and I hope that this hearing will help us achieve those goals.
    Thank you, Mr. Chairman.
    Mr. Shadegg. I thank the gentleman.
    Before we move to our panel of witnesses, I want to 
recognize a group of students we have here. I think we have 
some 40 students from Drexel University along with their 
professor, Roy Kim. So welcome. We appreciate your being here. 
We think it is an interesting hearing for you to be able to 
attend.
    Let me begin by introducing two members of our panel, and I 
am going to ask the Ranking Member if you would introduce the 
third. Our first witness is the Honorable James Garner, Mayor 
of the Village of Hempstead, New York, and the current 
president of the U.S. conference of Mayors.
    Our second witness is Colonel Randall Larsen, CEO of 
Homeland Security Associates, and former Director of the 
Institute of Homeland Security. Thank you for being here.
    Mr. Thompson. Well, I am happy to introduce Robert Latham, 
who is our Mississippi Emergency Management Agency Director. 
And on a scale of 1 to 50, in my book he is number one. Glad to 
have you.
    Mr. Shadegg. We appreciate all of your being here. Your 
statements will be inserted in the record in their complete 
version, and we would appreciate it if you would summarize your 
testimony and try to squeeze it into the 5 minutes that the 
clock will allow you. But we are not going to be real firm with 
that gavel. We want to hear what you have to say. It is our job 
to learn from you here today. So thank you for being here.
    Mr. Shadegg. And, Mayor Garner, would you like to begin?

STATEMENT OF THE HONORABLE JAMES A. GARNER, MAYOR OF HEMPSTEAD, 
   NEW YORK PRESIDENT, THE UNITED STATES CONFERENCE OF MAYORS

    Mr. Garner. Thank you, Mr. Chairman. Good evening. My name 
is James A. Garner, and I am the Mayor of Hempstead, New York, 
and the 61st president of the United States Conference of 
Mayors.
    I want to thank Chairman Shadegg, Ranking Member Thompson, 
and the members of the subcommittee for this opportunity to 
testify on H.R. 3266, Faster and Smarter Funding for First 
Responders Act.
    One month after September 11th, the Conference of Mayors 
sponsored an emergency summit with more than 200 mayors, police 
chiefs, fire chiefs, and emergency managers at which we 
developed a national action plan. One of the key 
recommendations was for a first responders block grant 
containing direct funding to help prevent and respond to any 
attack on our cities. But cities have not sat back and waited 
for Federal assistance before working to secure our homeland. 
Our national surveys have shown that cities spent billions of 
dollars after 9/11 on equipment, training, and overtime, 
numbers which increased during the war and periods of high 
alert.
    We also strengthened our regional partnerships and mutual 
aid agreements, which is currently the case in Nassau County 
where I live.
    Mayors appreciate that Congress and the administration are 
now providing significant funding intended to help first 
responders. However, as we stated, when the program was first 
proposed, we believed that monies intended for local first 
responders should not be provided through the States. We were 
concerned that the funding would not reach first responders in 
a timely fashion, or be provided in a manner that promotes 
prevention as well as response.
    Unfortunately, we are finding this to be the case. On 
October the 17th, the Conference of Mayors released a new 
survey tracking homeland security funds sent to the 50 States. 
The analysis surveyed 168 cities of all sizes, with at least 
one city in every State. We found that over half of the cities 
have either not been consulted or have had no opportunity to 
influence State decisionmaking about how to use and distribute 
fundings. The survey also found that 80 to 90 percent of cities 
had not received funds from the country's largest Federal 
homeland Security program, the State block grant.
    I would ask that this survey be inserted into the record. 
Mr. Chairman, I have a survey here it is entitled ``168 Cities 
Out of 50 States,'' September 2003.
    Mr. Shadegg. Without objection, so ordered.
    [The information follows:]

        A Copy of the Report entitled ``The United states Conference of 
        Mayors Homeland Security Monitoring Center FIRST MAYORS' REPORT 
        TO THE NATION: Tracking Federal Homeland Security Funds Sent to 
        the 50 State Governments A 168 City/50-State Survey'' September 
        2003. Is maintained in the Committee files.

    Mr. Garner. We note that while the law requires that States 
suballocate 80 percent of the funding to local government, once 
that funding is sent to counties or regional governments--which 
is often the case--the deadlines end and there is no further 
time requirement on getting funds to cities.
    We also hear that some States may be planning to purchase 
equipment they think local government needs and send it to them 
without input.
    We appreciate that Chairman Cox shared our concern that 
funding be provided to communities at risk, and that it not be 
stalled at the State level. One of the recommendations that 
emerged from our homeland security task force was that if 
States failed to meet deadlines, the Department of Homeland 
Security should be required to develop an appeal system to get 
funds directly to cities. We are pleased that the Department of 
Homeland Security has taken administrative steps to make sure 
that deadlines are met. We are very pleased that such a 
provision is contained in H.R. 3266 and urge that the 
requirement be made Federal law.
    We also appreciate the support in the bill for existing law 
and for the partnership programs such as COPS, local law 
enforcement block grants, and fire grants. We also ask that 
continued support be provided for the high-threat urban 
security grant program that has been successful in moving funds 
to cities and fostering regional cooperation. While H.R. 3266 
does not contain direct funding for cities, as we continue to 
call for, we recognize the efforts to move the funding more 
locally by allowing regions to apply for assistance.
    As this subcommittee moves forward with this proposal, we 
would like to raise several issues:
    First, it is not clear to us how a region would be defined 
and to what extent individual cities would have a say in this 
process. We would be very concerned if regional authorities 
would have the ability to apply for funding on behalf of cities 
without their consent or engagement in the process.
    Second, we are not clear on what the requirements would be 
for the Department of Homeland Security to approve regional 
applications, or instead continue to send funding through the 
States.
    Third, we recommend that an increased focus be placed on 
terrorism prevention. To do this, there simply must be funding 
provided for overtime assistance at times of high alert or 
special local concerns and for training.
    There is no equivalent for more officers on the street 
engaging with the community to provide local intelligence and 
to prevent attacks.
    I also want to comment on H.R. 3158, the Preparer Act, 
introduced by Representative Turner and other members of 
Congress. We appreciate that this bill works to develop 
standards based on threats and vulnerability assessments, 
foster statewide planning with local input, and provide for 
personal reimbursement during elevated threat levels. However, 
we remain concerned about the lack of direct funding and lack 
of pass-through guarantees.
    We are also concerned that the planning process contained 
in the bill at both Federal and State levels could further 
delay funding from reaching first responders.
    To conclude, Mr. Chairman, let me make two points.
    Mayors believe that without some kind of predictable direct 
funding, rather than year-by-year decisions made at the State 
level, it will be difficult to budget for long-term homeland 
security activities at the local level. After all, equipment 
must be maintained, training must be continually enhanced, and 
vulnerable infrastructure and public events must be secured, 
especially during heightened alerts.
    We also request work with the Department of Homeland 
Security to closely monitor how first responder funding is 
currently following through to the States. We would urge that 
the Department of Homeland Security and the States be required 
to provide very detailed information as to exactly which local 
governments have received pass-through fundings and for what.
    I want to thank the subcommittee for this opportunity to 
testify on behalf of the U.S. conference of Mayors, and we look 
forward to working with you as together we strengthen our 
Nation's homeland defense. Again, I want to thank you, Mr. 
Chairman.
    Mr. Shadegg. I thank for your testimony.
    [The statement of Mr. Garner follows:]

 Prepared Statement of James A. Garner, Mayor of Hempstead, New York, 
           President, The United States Conference of Mayers

    Good afternoon. My name is James A. Gamer. I am the Mayor of 
Hempstead, New York and the 6151 President of the U.S. Conference of 
Mayors.
    I want to thank Chairman Shadegg, Ranking Member Thompson and the 
members of the Subcommittee for this opportunity to testify on HR 3266, 
the ``Faster and Smarter Funding for First Responders Act.''
    One month after September 11, the Conference of Mayors sponsored an 
Emergency Summit with more than 200 mayors, police chiefs, fire chiefs 
and emergency managers at which we developed a National Action Plan.
    One of the key recommendations was for a first responder block 
grant containing direct funding to help prevent and respond to any 
attacks on our cities.
    But cities have not sat back and waited for federal assistance 
before working to secure our homeland.
    Our national surveys have shown that cities spent billions of 
dollars after 9-11 on equipment, training and overtime, numbers which 
increased during the war and periods of high alert.
    We also strengthened our regional partnerships and mutual aid 
agreements, which is certainly the case in Nassau County where I live. 

    Mayors appreciate that Congress and the Administration are now 
providing significant funding intended to help first responders.
    However; as we stated when the program was first proposed, we 
believe that money intended for local first responders should not be 
provided through the states.
    We were concerned that the funding would not reach first responders 
in a timely fashion, or be provided in a manner that promotes 
prevention as well as response.
    Unfortunately, we are finding this to be the case.
    On October 17, the Conference of Mayors released a new survey 
tracking homeland security funds sent to the 50 states. The analysis 
surveyed 168 cities of all sizes, with at least one city in every 
state.
    We found that over half of the cities have either not been 
consulted or have had no opportunity to influence state decision-making 
about how to use and distribute funding.
    The survey also found that 80 to 90 percent of cities had not 
received funds from the country's largest federal homeland security 
program--the state block grant.
    I would ask that this survey be made a part of the record.
    We note that while the law requires that states sub-allocate 80 
percent of the funding to local governments, once that funding is sent 
to county or regional governments--which is often the case--the 
deadlines end and there is no further time requirements on getting 
funds to cities.
    We are also hearing that some states may be planning to purchase 
equipment they think local governments need, and send it to them 
without input.
    We appreciate that Chairman Cox shares our concern that funding be 
provided to communities at risk and that it not be stalled at the state 
level.
    One of the recommendations that emerged from our Homeland Security 
Task Force was that if states fail to meet deadlines, the Department of 
Homeland Security should be required to develop an appeals system to 
get funds directly to cities. Weare very pleased that such a provision 
is contained in HR 3266, and urge that the requirement be made 
mandatory.
    We also appreciate the support in the bill for existing law 
enforcement partnership programs such as COPS, Local Law Enforcement 
Block Grants, and Fire Grants.
    We would also ask that continued support be provided for the high-
threat urban security grant program that has been successful in moving 
funding to cities and fostering regional cooperation.
    While HR 3266 does not contain direct funding for cities--as we 
continue to call for--we recognize the effort to move the funding more 
locally by allowing regions to apply for assistance.
    As this Subcommittee moves forward with this proposal, we would 
like to raise several issues.
    First, it is not clear to us how a region would be defined, and to 
what extent individual cities would have a say in this process. We 
would be very concerned if regional authorities would have the ability 
to apply for funding on behalf of cities without their consent or 
engagement in the process.
    Second, we are not clear on what the requirements would be for the 
Department of Homeland Security to approve regional applications, or 
instead continue to send funding through the states.
    Third, we recommend that an increased focus be placed on terrorism 
prevention. To do this, there simply must be funding provided for 
overtime assistance at times of higher alerts, for specific local 
concerns, and for training.
    There is no equivalent for more officers on the streets engaging 
with the community to provide local intelligence and prevent attacks.
    I also want to comment on HR 3158, the PREP ARE Act, introduced by 
Representative Turner and other Members of Congress.
    We appreciate that this bill works to develop standards based on 
threat and vulnerability assessments, foster state-wide planning with 
local input, and provide for personnel reimbursement during elevated 
threat levels.
    However, we remain concerned about that lack of direct funding and 
lack of pass-through guarantees.
    Weare also concerned that the planning processes contained in the 
bill at both the federal and state levels could further delay funding 
from reaching first responders.
    To conclude, let me make two points.
    Mayors believe that without some kind of predictable, direct 
funding--rather than year-by-year decisions made at the state level--it 
will be difficult to budget for long-term homeland security activities 
at the local level.
    After all, equipment must be maintained, training must be 
continually enhanced, and vulnerable infrastructure and public events 
must be secured--especially during heightened alerts.
    We also request that Congress work with the Department of Homeland 
Security to closely monitor how first responder funding is currently 
flowing through the states.
    We would urge that DHS and the states be required to provide very 
detailed information as to exactly which local governments have 
received pass-through funding, and for what.
    I want to thank the Subcommittee for this opportunity to testify on 
behalf of the U.S. Conference of Mayors, and we look forward to working 
with you as together, we strengthen our nation's homeland defense.

    Mr. Shadegg. Colonel Larsen.

STATEMENT OF COLONEL RANDY LARSEN , USAF (RETIRED), FOUNDER AND 
               CEO, HOMELAND SECURITY ASSOCIATES

    Colonel Larsen. Mr. Chairman, Mr. Thompson, Mr. Turner, and 
Chairman Cox, thank you for this. I was asked here today to 
comment specifically on H.R. 3266, and so my remarks will be 
limited to that.
    The framework I used for analysis of this bill is one that 
I frequently use when asked by Congress, administration, or 
members of the press or the general public about any sort of 
homeland security legislation program or even commercial 
products. I ask three questions, and I suggest you use the same 
standard here: Will this make my family more secure? Can 
America afford it? And, what will it do to my civil liberties?
    Well, I looked at this legislation from various 
perspectives also, as someone who has spent the last 10 years 
studying homeland security, as a taxpayer, as the CEO of a 
corporation, and as a father. I am pleased to report from all 
perspectives I give H.R. 3266 a positive response to those 
three questions. Certainly it is not a panacea to this complex 
challenge, but it is a step in the right direction.
    But I do have some points I would like to make.
    First of all, the legislation calls for grants based on 
threats determined by the Secretary of Homeland Security rather 
than on population size, or what I call politics as usual. I 
have worked with Representative Shays on this issue long before 
9/11. It is the right thing to do, but certainly difficult. As 
has already been noted here, we were designed as a free and 
open society, and to use terminology I used as an Air Force 
pilot, America is, unfortunately, a target-rich environment.
    The Under Secretary for Information Analysis and 
Infrastructure Protection in DHS will require your support. And 
this will require courage on your part, because when he has to 
make tough decisions about facilities that are not in your 
particular district, you will need to support those decisions.
    All Americans, whether you are a Member of Congress, the 
administration, Governors, State legislators, county 
executives, mayors, and citizens, we must learn to think 
nationally and regionally, not just parochially, about 
defending our homeland.
    I used to sit in this room in uniform. You know, it was far 
easier when securing America meant buying another nuclear-
powered aircraft carrier; because, Mr. Chairman, that nuclear-
powered aircraft carrier protected Cave Creek, Arizona as much 
as it did Boston, Massachusetts. But when we buy equipment for 
Cave Creek, Arizona, it does nothing for the citizens of Boston 
or New York or Washington. It is a more difficult challenge.
    Second, that is why we have to establish priorities. We 
just cannot afford to do everyone. I am sure we will get Boston 
and Cave Creek, I understand.
    Second, the legislation addresses the issue of 
prioritization.
    Colonel Larsen. Since November of 2001, I have repeatedly 
stated to Congress and the administration that the greatest 
threat to the American homeland is not nuclear weapons or 
biological weapons or chemical weapons or large conventional 
explosives or cyber weapons. The greatest threat, in my 
opinion, is uncontrolled spending. We cannot afford to provide 
every first responder with every piece of equipment or every 
training program on their wish list. I was asked--I am a member 
of the Council of Foreign Relations--and I was asked to be on 
that most recent study. I disagreed with their methodology that 
they approached with it, which is why I did not participate. I 
liked Hart-Rudman 5 study that was sponsored by the Council on 
Foreign Relations, but not the most recent one.
    America cannot afford a chemical detector in every 
government building or piece of critical infrastructure. We 
cannot afford to guard every facility in this country the same 
way we do this Nation's Capitol. We must establish priority. 
And I agree with the priorities that were listed in 3266, 
significant loss of life, risk of large scale denial of human 
means of subsistence and risk of massive disruption of one or 
more sectors of our economy. I have spent a lot of time in the 
last 2-1/2 years working on those last two, when we did 
exercises such as Dark Winter where Senator Nunn played the 
President, and other participants included: Jim Woolsey, Bill 
Sessions former FBI director, Governor Frank Keating of 
Oklahoma. We looked at a small pox attack and what it would do, 
and you know what the greatest damage was, it was the 
disruption of our economy. We did one--I have been doing the 
last 2 years working with Jim Moseley, the Deputy Secretary of 
Agriculture, and Claude Allen, the Deputy Secretary of HHS, 
about attacks on our food supply. One thing this committee and 
subcommittee needs to be careful about is not preparing for the 
last war.
    I used to be chairman of the military department at the 
National War College, and that was one of my concerns, we were 
preparing our students to fight Desert Storm again. All I have 
heard today for first responders is EMT, fire and police. They 
are all important. But I tell you, if you look at where al 
Qaeda will attack our economy and our food supply, there is a 
lot of first responders out there that I haven't heard 
mentioned today that are very important, and those traditional 
first responders doing nontraditional roles.
    I do a lot of executive seminars for the Sheriff's 
Association of Washington State, the Sheriff's Association of 
Illinois, new things that sheriffs and police chiefs would have 
to do that are not part of traditional police work, and in some 
cases firefighter work. But the most difficult one though that 
I think that you owe to Secretary Ridge is defining what 
significant loss of life means. Now a lot of these young folks 
back here behind us don't remember this. I know everyone on the 
panel up there does. Back during the Vietnam War, I was a 19-
year-old kid in Vietnam, and I used to read Stars and Stripes 
and my mom read at home ``the casualties this week in the 
central highlands were light.'' You know, that had a different 
perspective for the families who were connected to those light 
casualties.
    What is it? Significant loss of casualties. What does that 
mean to Secretary Ridge and what does that mean to governors? 
In 2001, we had 3,000 Americans die from terrorism. We would 
probably all say that was significant. In 2001, we had 5,000 
Americans die of food poisoning. Did we have any hearings up 
here? We had 35,000 die in automobile accidents. We had 90,000 
die from improper medical procedures. In the summer of 2001, 
just before 9/11, a study was released that said if all drivers 
and passengers of automobiles wore NASCAR style helmets we 
could reduce fatalities in the United States by 40 percent.
    So I am sitting here right now and telling this panel how 
you could save 15,000 lives next year. Is that not a 
significant number? But I don't think that we are going to pass 
that legislation. But what I am telling you is what does it 
mean? It is a great term. Those are the right priorities, but I 
think we need to have a discussion on what significant loss of 
life means.
    Now I don't know how many have been down to Oklahoma City 
to the memorial. You know you walk into a small room and they 
have the table sitting there where right across the street they 
had the water board meeting and the water commissioner of 
Oklahoma started the meeting right on time at 9 o'clock. And at 
9:02 you hear the horrible explosion and people screaming and 
then that room goes completely dark and there are 168 
photographs that come up on the wall. Now I tell you in 
Oklahoma City, that is significant. But is it 168? Is it 3,000? 
Is it five? We lost five to inhalation anthrax and spent $5 
billion on biodefense. It is a discussion you need to have and 
it is something you owe Secretary Ridge.
    Third, and something I really like in this bill is it 
prohibits supplantation. I know, Mr. Frank, you made a comment 
that you didn't particularly like that. But I tell you from the 
homeland security perspective and as a taxpayer, I applaud you 
for putting this in there. As a realist and an observer of how 
the system works, I guarantee you you need more than one 
sentence and one bill to fix this problem. If you would like a 
real eye opener about how serious supplantation is, I recommend 
you talk to Dr. Ellen Gursky from the ANSER Institute for 
Homeland Security. Dr. Gursky recently finished a study funded 
by the Century Foundation that examines the issue. The report 
will be released later this month.
    You will find it shocking to see how good intentions, good 
ideas and significant sums of money that come from this 
Congress get distorted, disrupted and diverted to the State 
level. Supplantation is an issue that deserves its own bill and 
something that must be corrected if we are going to see 
improvement in homeland security. The flexibility that H.R. 
3266 gives to the Secretary of Homeland Security is very 
important, and I applaud your insight and flexibility.
    And one last thing here. Regional funding, I think it is 
the most important part of this bill. We cannot provide all the 
equipment and training needed for every fire house, police 
department and emergency room that is on their current wish 
list. But if a major attack occurs in Washington, D.C., local 
leaders and first responders must be prepared to accept major 
assistance from surrounding communities and States. And to do 
this effectively, we must conduct regional exercises and 
training. And I think the only way that will happen is with 
Federal funds. We cannot be exchanging business cards on the 
first day of a crisis. And unfortunately that is what would 
happen in many regions today. Thank you for the time.
    Mr. Shadegg. Thank you for your testimony.
    [The statement of Colonel Randall Larsen follows:]

            Prepared Statement of Colonel Randall J. Larsen,

    Mr. Chairman, distinguished members, thank you for allowing me the 
opportunity to provide my comments on H.R. 3266, Faster and Smarter 
Funding for First Responders.
    I am frequently asked by Members of Congress, the Administration, 
members of the press, and the general public to assess homeland 
security legislation, programs and commercial products. I always begin 
by asking three questions:
    Will this make my family more secure?
    Can America afford it?
    What will it do to my civil liberties?
    From the various perspectives of someone who has spent the past ten 
years studying the field of homeland security, as a taxpayer, as a 
corporate CEO, and as a father, I am pleased to report that H.R. 3266 
receives a positive response to all three questions. While not a 
panacea to this incredibly complex and difficult challenge, this bill 
is a step in the right direction.
    First of all, this legislation calls for grants based on threats as 
determined by the Secretary of Homeland Security, rather than on 
population size or ``politics as usual.'' This is an issue that 
Representative Shays has advocated for several years. It is clearly the 
right thing to do, but will be a Herculean challenge. America was 
designed to be an open and free society. From a terrorist's 
perspective, this makes our homeland a target rich environment. The 
Under Secretary for Information Analysis and Infrastructure Protection 
will require your support, particularly when tough decisions are made. 
Not every facility in every congressional district will make the list.
    All Americans--Members of Congress, the Administration, Governors, 
State Legislators, Mayors, County Executives, and citizens--must learn 
to think nationally not just parochially about defending our homeland. 
It was far easier when securing America meant buying another aircraft 
carrier. An aircraft carrier protected the people of Cave Creek Arizona 
as much as it did the citizens of New York City. The same will not be 
true for all homeland security equipment and training programs provided 
to local governments.
    Second, it addresses the issue of prioritization. Since November 
2001, I have repeatedly stated to Congress and the Administration that 
the greatest threat to the American homeland is not nuclear weapons, 
biological weapons, chemical weapons, large conventional explosives or 
cyber weapons. The greatest threat we will face in the years ahead is 
uncontrolled spending. America cannot afford to provide every first 
responder with every piece of equipment or every training program on 
their wish lists. America cannot afford a chemical detector in every 
government building or piece of critical infrastructure. America cannot 
guard every key facility in the manner that the nation's capitol is 
currently protected. We must establish priorities and they must be 
based upon the three factors listed in this legislation: risk of 
significant loss of life, risk of large-scale denial of the means of 
human subsistence, and risk of massive disruption to one or more 
sectors of our economy.
    The most difficult task will be to define significant loss of life. 
During the Vietnam War, the government would report, ``the casualties 
this week in the central highlands were light,'' but we all knew that 
the families of those deceased soldiers had a different perspective on 
the term ``light''.
    America lost nearly 3,000 innocent civilians to terrorism in 2001. 
On the other hand, America lost 5,000 citizens that year to food 
poisoning, 35,000 in automobile accidents and more than 90,000 to 
improper medical procedures. In the summer of 2001, a study reported 
that if all drivers and passengers of automobiles wore NASCAR quality 
helmets, fatalities would be reduced by up to 40 percent. In other 
words, if this Congress passed legislation requiring every occupant of 
every automobile in America to wear helmets, we could save more than 
15,000 lives next year. Are 15,000 lives not significant? Why hasn't 
Congress passed such legislation? How will the Secretary of Homeland 
Security define significant loss of life? You should provide him 
guidance.
    Third, this bill prohibits supplantation. From a homeland security 
and taxpayer perspective, I applaud this section of the bill. As a 
realist and an observer of how the system works, I guarantee you need 
more than one sentence in one bill to fix this problem. For a real eye 
opener on the seriousness of supplantation, I recommend you talk to Dr. 
Elin Gursky from the ANSER Institute for Homeland Security. Dr Gursky 
recently finished a study, funded by the Century Foundation, that 
examines this issue. The report will be released later this month. You 
will find it shocking to see how good ideas, intentions, and 
significant sums of money that come from this Congress get distorted, 
disrupted and diverted at the state level. Supplantation is an issue 
that deserves its own bill. It is something that must be corrected 
before we can see significant improvement in homeland security.
    Fourth, and somewhat related to issue three, is the bill's 
requirement to push down ``not less than 80 percent'' of grant funds to 
local governments and first responders. This has been a problem I hear 
about frequently in my visits to those on the front lines of homeland 
security, such as police officers, fire fighters, and emergency medical 
personnel. In particular, I have heard this complaint from the public 
health community in California. I recognize that there is a significant 
budget crisis in that state, but money that is designated for front 
line troops should not be disproportionately skimmed by state agencies. 
H.R. 3266 provides penalties for failure to pass these funds down to 
local governments and first responders, but I wonder if there is 
sufficient manpower at the Department of Homeland Security to 
adequately monitor these grants.
    Fifth, the flexibility provided to the Secretary of Homeland 
Security to transfer all or part of funds to a different project once a 
grant has been made fits the title of Faster and Smarter Funding. I 
applaud your insight and wisdom in providing such flexibility to the 
Secretary.Homeland security is a rapidly evolving field. I have taught 
graduate courses in Homeland Security since 1999, and find that I must 
make major revisions to my syllabus each semester. Flexibility is 
critical to success in homeland security, whether in the classroom or 
on the front lines.
    Finally, and in some respects most important, is funding for 
regional programs. America cannot afford to provide every fire house, 
every police department and every hospital emergency room with every 
piece of equipment and every training program on their wish lists. We 
must learn to leverage regional capability. If a major attack occurs in 
Washington DC, local leaders and first responders must be prepared to 
accept major assistance from surrounding communities and states. To do 
this effectively, we must conduct regional planning, exercises and 
training. Providing Federal funds for such activities is the best way, 
and perhaps the only way, to ensure that these regional players will 
not be exchanging business cards on the first day of crisis. Federal 
funding for multi-jurisdictional planning, exercises and training is 
critically important to making America more secure at price we can 
afford.
    I appreciate the opportunity to comment on H.R. 3266 and look 
forward to your questions.

    Mr. Shadegg. I want to express my appreciation for your 
mentioning Cave Creek Arizona, which is in my district. And in 
fact, you make a good point about how an aircraft carrier 
protects both Cave Creek and the rest of the Nation, but these 
allocation of resources--.
    Mr. Frank. If the Chairman would yield, I hope in Cave 
Creek you are not going to be taking those Federal funds and 
saving on your local stuff.
    Mr. Shadegg. They don't believe in supplantation in Arizona 
but I have heard it happens in other States. I also want to 
mention, you made a reference to examining our food supply, and 
my subcommittee indeed has a tentative hearing scheduled on the 
threat to our food supply, because I think you point out there 
are lots of vulnerabilities, and that is one of great concern. 
Let me turn now to Mr. Robert Latham.

STATEMENT OF ROBERT LATHAM, JR, DIRECTOR, MISSISSIPPI EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Latham. Mr. Chairman, Ranking Member Thompson, Chairman 
Cox, I sincerely appreciate the opportunity to testify before 
you today and personally thank you on behalf of the citizens of 
Mississippi for what you are doing to help secure our homeland. 
The homeland security effort has required unprecedented 
cooperation between disciplines and jurisdictions and the 
building of coalitions and partnerships at every level of 
government. There will never again be a routine call for our 
first responders. Everyday they put their lives on the line. 
Hundreds paid the ultimate sacrifice on September 11, 2001. 
Thanks to the efforts of Congress, States and communities have 
received millions of dollars to ensure that our emergency 
responders have the resources that they need. I would like to 
provide you with some issues highlighting some of the obstacles 
the States and local governments are dealing with as we build 
this capability together.
    First the creation of the Department of Homeland Security 
enabled the Federal Government to consolidate many agencies 
forcing the elimination of turf battles that have existed for 
decades. There are similar challenges at the State and local 
level, but we are committed to building the relationships that 
are critical in developing the multi-disciplined, multi-
jurisdictional capabilities we need.
    Second, the outcome of our efforts will depend upon our 
ability to build comprehensive and integrated plans at the 
State and local level, plans that are based on vulnerabilities, 
matched with local, regional and State capabilities. Every 
community does not need a level A HAZMAT capability, but every 
community must have a basic response capability. In 
Mississippi, we have taken that approach and are seeing steady, 
consistent progress. To continue this type of success, States 
must have the lead role where management of these initiatives 
to ensure plan uniformity and integration.
    Third, our ability to share intelligence information must 
continue to be improved. Every member of the law enforcement 
community must have the ability to share real-time information. 
Fusing this information at the appropriate level, analyzing the 
information and using the most current technology for timely 
distribution of this information with a cop on the street is 
vital to this effort. Most of all, we should not forget the 
role of the average citizen. As a Nation we can only be secure 
when every community in every county in every State is secure.
    Last but most importantly, we must sustain this planning 
and capability for the long term. As States, we recognize our 
role and responsibility and are moving rapidly to develop and 
sustain this capability. Securing critical infrastructure and 
developing a comprehensive response strategy is crucial. It 
takes States working with counties and cities to build this 
strategy.
    I urge you to continue to provide the resources to the 
States so that we can work with the communities to sustain this 
effort. However, there are some issues that continue to affect 
the State and local ability to develop and sustain this effort. 
First I think it is important to recognize that ``one size does 
not fit all.'' States should be allowed the flexibility within 
DHS guidelines to utilize the funds to meet those needs. Things 
such as; allowing the State administrative agency, designated 
by the governor, flexibility within DHS guidelines; and 
allowing the State administrative agency to approve local 
changes to equipment requests as long as they fall within the 
State strategy and meet ODP guidelines.
    The evolvement of technology, change in vulnerability 
assessments and improved capability justifies the need for this 
flexibility. Minimize paperwork or on-line requirements for the 
State administrative agency. Once the application is approved, 
showing the 80 percent pass-through or grant distribution plan 
in our formula, ODP should accept, approve and fund the 
application. In Mississippi, we met the required pass-through 
deadlines and actually exceeded the amount that was required to 
be passed through to local governments.
    Second, coordinate all homeland security grant programs 
through the Federal Government to allow a coordinated 
implementation by the States, counties and the cities. 
Bioterrorism grants, fire grants and others intended to improve 
the response capability need to be concurred with by the State 
homeland security advisor to ensure that all initiatives are 
supportive of the national and State homeland security strategy 
and are not repetitive. There is only one strategy and all 
initiatives to support this strategy.
    Third, continue providing planning funds that will enable 
the States to enhance existing, proven, comprehensive, all-
hazards emergency management plans. So far, planning funds have 
been dedicated to updating vulnerability and capability 
assessments, the State homeland security strategy and response 
plans for the new threat.
    Fourth, track support of first, second and other responders 
by comparing improvements in capability as evidenced in annual 
reports already required by ODP. Don't require additional and 
redundant reports.
    Fifth, remember that development of a capability is only 
the beginning. Sustainment of that capability will be the 
challenge. We need assurances of the Federal will to fund these 
initiatives for the long-term. We need consistent and 
predictable funding for equipment replacement and upgrades in 
training.
    In closing, I would like to address some issues that can 
make homeland security programs more effective. Refine the 
alert level warning system by targeting the warnings where 
possible to a specific infrastructure sector or region of the 
country. Enhance current proven warning systems such as NAWAS 
and the Emergency Alert System to provide timely warning and 
information to State and local governments as well as the 
general public. Preserve pre-911 grant programs such as the 
Emergency Management Performance Grant, Fire Grants, COPS 
grants. These grants provide the funds necessary to sustain 
valuable programs that have proven themselves in our States and 
our communities. Grants such as EMPG are providing the 
cornerstone for our State and local all-hazards capability.
    State and local emergency managers are playing vital roles 
in homeland security efforts to include vulnerability and 
capability assessments, development of State and local 
strategies and grant management. Loss of this grant will 
undermine an all-hazards approach to preparedness, response, 
recovery and mitigation. Those are already in place. Our 
communities will continue to be ravished by floods, tornadoes 
hurricanes and earthquakes.
    An act of terrorism is another risk and threat that has 
consequences that we must plan for and be prepared to manage. 
Emergency management is the only nondiscipline specific, 
nonjurisdictional specific element that can and has pulled the 
various programs and disciplines together in times of crisis. 
Homeland security should not come at the expense of these other 
programs. We should build on what is already in place. Each and 
every day, our communities become more secure and our emergency 
responders are better prepared. Achieving our goal to make our 
homeland secure will take time. This is a team effort with a 
national will to succeed. States are committed to being a team 
player.
    Give us the resources we need to meet the challenge. Don't 
tie our hands. Give us the flexibility. Hold us accountable, 
but help us do the job we need to do. Ladies and gentlemen, I 
appreciate this opportunity and submit my testimony for the 
record.
    [The statement of Robert Latham follows:]

              Prepared Statement of Robert R. Latham, Jr.

    ``Investing in and Building a National Capability--A State and 
Local Perspective''
    Chairman Cox, Ranking Member Thompson and Distinguished Committee 
Members:
    I sincerely appreciate the opportunity to testify before you today 
and personally thank you on behalf of the citizens of Mississippi. In 
providing for you a state perspective, I hope I am able to aid you in 
your efforts to better prepare our nation, make our communities safer 
and provide our citizens with the security that they expect and 
deserve. The homeland security effort has required unprecedented 
cooperation between disciplines and jurisdictions and the building of 
coalitions and partnerships at every level of government.The result has 
been the recognition of the vast capabilities we have when we work 
together, resulting in shared responsibilities and resources. This team 
building, like never before, has opened the doors of opportunity to 
help us achieve our goals.
    Today, our firefighters, law enforcement officers, emergency 
medical personnel and emergency management personnel now recognize that 
there is NO such thing as a ``routine call''. Each and every day they 
put their lives on the line to make our communities safer. The 
sacrifice they make became evident on September 11,2001 when thousands 
of innocent civilians lost their lives and hundreds of first responders 
paid the ultimate sacrifice for their fellow man--just doing their job.
    Since that horrendous act, thanks to the efforts of Congress, 
states and communities have received millions of dollars to ensure that 
they have the resources necessary to meet this new threat. On that 
note, I would like to provide you with some issues that states and 
local governments are dealing with to build this capability we all seek 
to attain.
    First, the reorganization of the federal government and creation of 
the Department of Homeland Security, under the leadership of a Cabinet 
Secretary, enabled the federal government to consolidate many agencies. 
This alone has served to minimize and, in some cases, eliminate the 
``turf battles'' that have existed at the federal level. While there 
are challenges at the state and local level, we are committed to 
building relationships that are multi-disciplined and multi-
jurisdictional. In Mississippi, working under a Governor's Executive 
Order to standardize incident management, we are bringing down barriers 
that have existed for decades.
    Second, the outcome of our efforts will depend upon the state's 
ability to build comprehensive and integrated plans at the state and 
local level. These plans must be based on vulnerabilities, matched with 
maximizing capabilities, and exercised and tested to determine 
shortfalls. Plans should address local, regional and state 
capabilities, utilizing and maximizing mutual aid built on a tiered 
response plan recognizing that not every community needs a Level A 
Hazmat capability, but EVERY community needs some basic response 
capability. In Mississippi, we have taken that approach and are 
building this tiered response plan that increases in capability at 
every level. Funds from the Department of Homeland Security are 
enabling us to build and enhance this capability. As a result, 81 of 
our 82 counties and 178 of our 312 municipalities are members of a 
Statewide Mutual Aid Compact. Development of this comprehensive 
strategy supports the national strategy for homeland security and can 
only be achieved through continued state responsibility for management 
of this program to ensure plan uniformity and integration.
    Third, just as we are building a team approach to preparedness, our 
ability to share intelligence information must be based on team 
building and mutual respect and trust between the various emergency 
responders and law enforcement entities. Every member of the law 
enforcement community from the federal, state and local level must have 
the ability to share real-time information and receive critical threat 
information as it relates to their jurisdiction. Fusing this 
information at the appropriate level, analyzing the information, and 
providing an assessment to state and local law enforcement is critical 
to our success in this effort. Availability of the most current 
technology to every level of law enforcement is vital to the timely 
sharing of this information. However, in this process we must not 
forget what could be the most important element of this process--the 
average citizen. Recognition and reporting of unusual activities in our 
neighborhoods and communities may very well be the one factor that 
prevents future attacks. Public education and awareness to their role 
is a major component of our efforts to secure our homeland, beginning 
in every neighborhood.
    Last but not least, we must ensure that we can sustain this 
planning and capability for the long term. Development of this 
capability is largely dependent upon our ability to build 
relationships. It's happening every day in the communities and states 
across this nation. As states we recognize our role and responsibility 
and are moving rapidly to ensure we take the steps necessary to develop 
and sustain this capability. As a nation, we can only be secure when 
every community in every county in every state is secure. While we 
recognize that we must prioritize securing our critical infrastructure 
and developing a comprehensive response strategy to include local, 
regional and state capability, we must not forget that every community 
in our nation must be a part of this effort. I urge you to continue to 
provide the resources to the states as we work with all of our 
communities to ensure the security of our homeland.
    Next, I would like to focus on the specific issues that adversely 
affect the state and local ability to development and sustain a 
comprehensive homeland security strategy.
    First I think it is important to recognize that ``one size does not 
fit all''. States should be allowed the flexibility, within DHS 
guidelines, to utilize the funds to meet those needs.Such things as: .
        <bullet> Allow the State Administrative Agency (SAA) to sub-
        allocate funds based on guidelines without requiring step by 
        step involvement of Office for Domestic Preparedness (ODP), 
        i.e. equipment requests. Under the current process, states are 
        required to submit to ODP a sub-allocation plan. Once the state 
        receives ODP approval jurisdictions are then required to submit 
        an equipment list and submit to the state for approval. Once 
        the state completes the review process, each jurisdiction's 
        list is submitted to ODP for approval. Once the state has 
        received approval for the equipment list, the jurisdiction is 
        notified and then signs a sub-grant application and returns it 
        to the state. Once this has been done the jurisdiction is 
        allowed to purchase the equipment. This burdensome process 
        results in an increased work load for ODP, the state and local 
        governments and an unnecessary delay in our first responders 
        receiving the equipment they need to do the job we ask them to 
        do.
        <bullet> Allow SAA to approve local changes to equipment 
        requests. The evolvement of technology, changing vulnerability 
        assessments and improved capabilities justify the need for this 
        flexibility and supports our cities and counties in this fluid 
        environment.
        <bullet> Minimize paperwork or on-line requirements for the 
        SAA. Once the application is approved, showing the 80 percent 
        pass-through or grant distribution plan and/or formula, the 
        federal government should, accept, approve and fund the 
        application-don't keep asking for more information! In 
        Mississippi, we not only have met the pass through deadlines, 
        we exceeded the amount that was required to be passed through.
    Second, coordinate all Homeland Security Grant Programs throughout 
the federal government to allow a coordinated implementation by the 
States, counties and cities. One example, the Bioterrorism Grants 
provided from the Department of Health and Human Services to states and 
Fire Grants to local fire departments need to be concurred with by the 
States to ensure that all initiatives are supportive and not repetitive 
There is only one strategy and all initiatives should support this 
statewide strategy. Yet, the all-hazards approach must be maintained 
along with traditional all-hazards capacity building programs.
    Third, continue providing planning funds that will enable the 
states to enhance existing, comprehensive, all-hazards emergency 
management plans. Up to this point, planning funds have been dedicated 
to updating vulnerability and capability assessments, the state 
homeland security strategy, and response plans to the new threat 
environment. Continuation of planning funds will allow states to take 
the planning to the next level--the local level.
    Fourth, track support of first, second and other emergency 
responders by comparing improvements in capability as evidenced in 
annual reports already requiring by ODP. Don't require additional 
reports. This places an enormous burden on state and local governments 
already operating with limited resources.
    Fifth, remember that development of a capability is only the 
beginning--sustainment of that capability will be the challenge. States 
need to have assurances of the federal will to fund these initiatives 
for the long term. With limited shelf-life of equipment, improvements 
in technology and training upgrades states will need consistent and 
predictable funding.
    In closing, I would like to address some issues that I think 
warrant comment as together we find ways to make the homeland security 
programs user-friendly and effective.
    Refine the Threat Alert level system by targeting the warnings to a 
specific infrastructure sector or region of the country. Changing the 
system at this point will only further confuse the public. Enhance 
current warning systems that are proven such as NAWAS and EAS to 
provide timely warning and protective measures to state, local 
governments and the general public.
    Preserve pre-9/11 Grant Programs such as the Emergency Management 
Performance Grant (EMPG). These grants provide the funds necessary to 
sustain valuable programs that have taken years to develop and have 
proven invaluable time and time again. Grants such as EMPG provide the 
cornerstone for our state and local all-hazards capability. Currently 
state and local emergency managers are playing a vital role in homeland 
security. Loss of this grant will undermine an all-hazards approach to 
preparedness, response, recovery and mitigation. Our communities will 
continue to be ravaged by floods, tornadoes, hurricanes and 
earthquakes. Mississippi currently has 10 open disasters for which we 
are managing recovery programs. Homeland Security is just another 
threat that has consequences that must plan for and be prepared to 
manage. Emergency Management is the only--non-discipline specific, non-
jurisdictional specific element that can pull the various programs 
together. Homeland Security should not come at the expense of these 
other programs. We should build on what is already in place.
    Each and every day our communities become more secure and our first 
responders better prepared. Achieving our goal to make our homeland 
secure will take time. This is a team effort. States are committed to 
being a team player. Give us the resources we need to meet the 
challenge. Don't tie our hands. Give us the flexibility. Hold us 
accountable, but help us do our job better.
    I appreciate this opportunity and will be glad to answer any 
questions you may have.

    Mr. Shadegg. I want to thank each of you for your very 
thoughtful statements. I want to advise the members of the 
committee that the clock is accurately counting down time, but 
the wire between here and the light out there is not connected 
very well, and so half the time it does not reflect what the 
clock reflects. So I did not count off any of these gentleman. 
I thought their statements were useful, although all of them 
went slightly over, but we will accept that. I will try to make 
the clock connect as best as possible with the light out there 
so you know where you are on our time. You already had a first 
responder deal with the thermostat. Warm enough in here for 
there to be a fire somewhere nearby, but we haven't got a first 
responder to try to fix our clock. At least no one is here 
cleaning our clock.
    In any event, to begin with questioning, and I will try to 
keep the wire connected so we can see how much time is left and 
it is not now--I have a green light--let me focus first on one 
aspect of H.R. 3266. As you know, H.R. 3266 preserves all of 
the existing grant programs; an important first step. It also 
preserves the ability of States to apply for homeland security 
grants. But significantly, it opens up this concept of allowing 
regions to apply. Mayor Garner, I know you addressed that issue 
and expressed some concern and I think thoughtfully outlined 
three different concerns you would have with the issue of 
allowing regions to apply. But given that we have communities 
not unlike the District of Columbia here where we have the 
District, we have Maryland nearby and Virginia nearby, there 
are clearly regions that cross State borders.
    We have States across the country where major cities sit 
literally on a State boundary. So if we could, I would like to 
begin by asking each of you to respond as to that aspect of the 
bill, if you believe it would be appropriate for regions to be 
allowed to apply; if you think there should be conditions 
allowing regions to apply, or if you think it is not 
appropriate for Congress to take that step and the legislation 
as H.R. 3266 applies. So I will throw it open to any of you.
    Mr. Garner. Mr. Chairman, let me just say, the question I 
guess again about--have the regional cooperation to control the 
money, Let me say no. Clearly the States have funding needs 
relative to homeland security and should have some Federal 
money for those needs as we have always supported. And clearly, 
there should be some moneys available to encourage regional 
cooperation for funding going to counties as well, as we have 
always supported. However, to assume that cities and counties 
will not work together is simply wrong thinking. More to the 
point, our surveys show that money sent to the States is not 
reaching the cities.
    And we need to act now to help prevent acts of terrorism 
not simply prepare to respond after an attack. And prevention 
is primarily a police activity and we are responsible for most 
of the police in the Nation. Let me also say, Mr. Chairman, one 
of the things that mayors across this Nation have consistently 
have said, be that they are Democrat or Republicans, fact that 
the money should come directly to first responders, which is 
the mayors across this Nation. They also say we are stretched 
to the limit, Mr. Chairman, with respect to our budget. As one 
of the Congressman indicated in one of his remarks, that we 
need predictable income in order to fix this budgetary problem. 
In terms of inoperability, we work--before that lexicon came 
about, we worked with each other, communities. We have always 
done that in our States. But again, it comes down to a chicken 
or the egg.
    Mr. Shadegg. You don't oppose the inclusion of regions in 
the legislation?
    Mr. Garner. Again, I will always say, Mr. Chairman, that I 
think the money basically should come directly to first 
responders and that is the mayor. It seems though, Mr. 
Chairman, that money goes to State House by way of Federal 
Express, but it comes to us by way of horse and buggy.
    Colonel Larsen. As I said, I felt the regional approach was 
very important. How are you going to define that. Are you going 
to use 10 FEMA regions and or are you going to just start 
creating them across the country in certain higher threat 
areas? I think that will be an issue that needs to be decided. 
It is very important--I did an exercise here about 18 months 
ago where we set off a dirty bomb in front of the Smithsonian 
and there was real challenges about Virginia and Maryland. Are 
you going to leave--people leave the city and bring 
radiological contaminated cars and vehicles to your States or 
whatever? The only way we can be prepared for that are the 
exercises that this sort of thing will fund because I don't 
think Virginia, Maryland and the District has the money 
themselves to do those sort of regional events. Maybe you do it 
through the FEMA districts. But I think the most important word 
is cross-jurisdictional. That is the problem we have in 
homeland security.
    Mr. Latham. I am the Vice Chair of the Central United 
States Earthquake Consortium, and we have been doing regional 
planning for years. We have done regional planning with other 
States to work on evacuations. In Mississippi, we have 
developed homeland security regions. We developed mutual aid 
that requires not only the counties, but cities to be part of 
this mutual aid compact because in an event, regardless of the 
cause, it will require resources from multiple jurisdictions 
and multiple disciplines.
    So, we have to build not only at the local level and even 
regionally up to the State, but we have to think outside the 
box, as well, and be prepared. I wouldn't want to do that at 
the expense of the other programs that we are also trying to 
mimic.
    Mr. Shadegg. I do have a question about, Mayor Garner about 
how quickly money gets there and your question about Federal 
Express and Pony Express. But unfortunately--and that goes to 
the 45-day distribution requirement we put in the distribution 
of the moneys that we just put out, and whether or not that is 
working or not working. Regrettably I am out of time and I will 
turn to the ranking member, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Taking part of your 
comment about the regions, you know there are 25,000 cities in 
America. And an average one is about 8,000 in population. One 
of the challenges we have is how do you make the whole notion 
of homeland security a real issue and instill confidence in the 
citizens of those communities that everybody is important. I 
represent a rural district. I don't have a Boston, 
Massachusetts or a Newark, New Jersey, but I do have 
communities of great importance. So how do you see the planning 
process for making sure that American citizens feel secure in 
their communities regardless of population as it relates to 
this legislation?
    Colonel Larsen. I am not sure post 9/11 we are ever going 
to be able to make every citizen feel secure in this country. I 
think that is a new reality we have to understand. We are not 
going to go back to that sense of security we had before. We 
can't afford to protect everything. But I think perhaps those 
FEMA regions might be a place to start where there was that 
regional approach. And so that would take--if you look at the 
FEMA region that covers your district, I am sure there are some 
larger municipalities in there that would even provide first 
responder capabilities to your district in the event of an 
attack.
    That is what is different about this than the Cold War. If 
the Soviets hit us, it was going to be every city. We couldn't 
depend on Philadelphia helping out, but now we can depend on 
our neighbors.
    Mr. Thompson. My point here is to try to address the need 
for planning, and if you do it in a coordinated fashion, you 
can still provide some degree of comfort and security to the 
people who don't live in large metropolitan areas. But those of 
us who represent rural areas have a fundamental problem with 
the realization of likely terrorist threats. You know, we don't 
have a Statue of Liberty or the Liberty Bell in RFD 
Mississippi, but we have some of the finest folk in the world 
that live there.
    And we have to create some degree of comfort among those 
citizens, too. So I don't want this committee, in its planning, 
to overlook that. I think that is real important. And the 
planning for whatever happens is real important, but you have 
to make those departments and other people understand that.
    Colonel Larsen. You don't have a Pentagon or Statue of 
Liberty there, but you have rail cars filled with chlorine and 
other highly toxic substances going through your district that 
would be a likely target. That is why the regional response 
capability that is planned for and practiced is important. That 
is what is difficult when we say where are these critical 
facilities. Do you know how many rail cars are moving around 
with chlorine gas right now and other chemicals? There are a 
lot of them. It is not those fixed facilities. They go through 
your district, I agree with you.
    Mr. Latham. I would like to elaborate on that a little bit, 
Mr. Thompson. The regional planning is important and I say we 
have done it in Mississippi. We have developed regions and we 
are doing regional planning. And even if you expand that beyond 
the State into multiple States, the State has to be involved to 
make sure it supports both States or multiple State strategies 
so we are all on the same sheet of music. And I would like to 
emphasize once again that post 9/11 in October of 2001, the 
State Emergency Operations Center in Jackson, Mississippi 
received over 700 calls and reports of suspicious white powder. 
Now most of these calls came from rural Mississippi. And every 
one had to be treated as an actual threat, and these 
firefighters and these first responders had no idea how to do 
that.
    So building the capability at the lowest level is 
important. Granted, it may be to the point of recognizing, 
doing the planning that you are talking about, doing the 
training and the exercising to the lowest level of government 
is important, if nothing more, to recognize that maybe this is 
beyond our capability, back off so that we can pull in regional 
teams to be able to manage the scene much better. But any rate, 
regardless of the size of the region, however you define the 
region, I think the States have to be involved in that process.
    Mr. Garner. Let me say, Mr. Chairman, we are concerned that 
regions get put together without our input, but getting to the 
region might be a better way than the States. We want to make 
sure that we are at the table in that process in terms of when 
you, perhaps, look at the region versus State. So that is 
basically--that is basically how I would say it.
    Mr. Shadegg. The Chair would now call on the chairman of 
the full committee to question.
    Mr. Cox. Thank you, Mr. Shadegg. I think your testimony has 
been outstanding and very helpful and the member questions have 
been very helpful as well, and member comments.
    Mayor Garner, if I may start with you, you have made the 
point just now and in your formal testimony that cities should 
not find themselves the subject of a grant application by a 
region that somebody else puts together. I think that is a 
reasonable point. It is not presently reflected in the 
legislation, so I want to ask you if we explicitly require that 
all jurisdictions that are included within a region be 
consenting partners to the application. Would that address that 
concern?
    Mr. Garner. I am not so sure, Congressman, but let me just 
say that cities, as I understand it, don't control the threat 
level of the system that set the threat level. We also don't 
manage the borders or control the entry of terrorists into our 
Nation, but we do control the local police and there is simply 
no substitute for local police guarding critical 
infrastructures or protecting public events and gathering 
intelligence, especially when the national threat level is 
increased. What we are asking for is perhaps is a partnership 
at the end of the day. Most of the funding for personal 
activities, as you know, will still come from the local 
government more or less.
    Mr. Cox. But just to be clear on the point, does it address 
your concern if we were to require in the legislation that when 
regions apply for grants through the Department of Homeland 
Security, the jurisdictions included within that region must be 
consenting partners in the application?
    Mr. Garner. Yes, sir.
    Mr. Cox. I want to be clear on that point. The reason that 
we are driven to this regional approach is that we have, first 
of all, heard it over and over again from the first responders 
across the country in our hearings.
    Second, because as Mr. Thompson points out, with tens of 
thousands of cities in the country and an average population 
per city of 8,000 people roughly, the Department's view is that 
they would be overwhelmed with applications if they have to 
take an application from every one. Beyond that, if we were to 
make grants on that basis, we would miss the opportunity that 
mutual aid agreements have been providing for us and that is 
that you don't need--you can share a lot of this equipment; you 
don't need to replicate it in every single small town. And so 
we want to drive this mutual aid agreement process and reward 
it because it has been so successful.
    Finally, with respect to how these regions get formed, I am 
a little bit chary about saying let us take the old FEMA 
regions, because what we are trying to do here is encourage 
innovation, and we are trying to grant flexibility to meet 
different homeland security challenges. We have done these two 
top-off exercises recently, and it is just a very different 
situation depending on the nature of the attack.
    If what you are trying to plan for is evacuation based on a 
dirty bomb, then weather patterns to a significant extent are 
going to dictate what that sensible region is for planning 
purposes. If, on the other hand, you are looking at an attack 
on the food supply in Iowa, then you are going to be concerned 
perhaps with the pattern and rates of disease spread in crops.
    So what we are suggesting in this legislation is that the 
Department of Homeland Security be empowered to evaluate 
applications from regions that can be pure ad hockery based on 
the threat that they perceive and the way that they want to 
meet it. So that, Mayor Garner, your city may be part of one 
region for one purpose and another reason for another purpose.
    What we are most anxious to do here is solve the problem 
and spend the money as wisely as possible. And with that in 
mind, I want to ask a question about mutual aid agreements. You 
mentioned it, Mr. Latham, in your testimony. Some States have 
them, some States don't. It seems to be something of a trend. 
What can we do to encourage more of this?
    Mr. Latham. I am not sure if you are aware of it, but the 
National Emergency Management Association has what is called 
EMAC, Emergency Management Assistance Compact. And what I think 
now, all but maybe a couple States are signed on. Mississippi 
took that program and it is a very proven program in natural 
disasters, we have actually implemented a system similar to 
that in Mississippi called the Statewide Mutual Aid Compact 
that was in place pre-9/11. At the time of 9/11, we had only 18 
of our 82 counties and about 25 of 312 cities that were 
members. But since 9/11, using a comprehensive strategy in 
Mississippi, we have used that to encourage signing on to this 
compact.
    So now we have 81 of our 82 counties with the 82nd one in 
the process and 178 of our 312 cities members of that compact 
because we recognize, that regardless of the event or the 
cause, local resources, at whatever level, will be exhausted 
totally, and we have to bring in resources from another city, 
from another county, maybe, even using EMAC and maybe from 
another State. We have been able to use our homeland security 
funds and increase mutual aid compact in Mississippi.
    Mr. Cox. My red light has just gone on, and I want to get a 
question under the wire which is to you, Colonel Larsen. You 
have challenged us to think about what significant loss of life 
means, so I accept your challenge in needing to think about it, 
but we need your help while you are here. You laid out the 
problem very nicely, and tell us how you might answer it if you 
were forced to do so?
    Colonel Larsen. I was afraid you were going to ask that. I 
have been thinking about homeland security for 10 years and 
writing about it. But since I put those words to paper last 
night, I had a hard time getting that off my mind because I 
think it is very critical to your point of prioritization. And 
late last night, sitting there thinking about standing in that 
museum in Oklahoma City, it is hard to imagine how 168 wouldn't 
be significant. But from a national perspective, you know, you 
almost have to take the perspective of General Eisenhower when 
he was talking to the 101 Airborne early on the morning of 6 
June.
    He knows these guys are going to jump in there and they are 
going to lose a bunch of them. There are going to be some 
losses, but we are not going to stop the invasion because 
people are going to die. Likewise, we can't spend ourselves 
into bankruptcy trying to prevent or respond to every event and 
every car bomber. I would be happy to help you think about 
that, but I will take the question for the record because I 
would like to spend some time sitting and thinking about it and 
getting back to you. I think it is critical to the success of 
your legislation.
    Mr. Cox. Thank you very much, Mr. Chairman.
    Mr. Pascrell. I have to respond to that. The danger in--I 
think there is a major danger in what you just said. I don't 
think we are talking about the numbers, God forbid, of 
fatalities. I don't think that is what determines terrorism or 
the level of terrorism. I think what determines it are the 
circumstances. I mean if there was a, God forbid--let us talk 
and put it on the table--if we don't do it, who is going to do 
it, an explosion by a terrorist and we determine that in a 
restaurant in Cheyenne, Wyoming, it would seem we would have to 
respond, and the FBI would have to respond and a lot of other 
agencies would respond.
    So I am not particularly--I am not thinking about it in 
terms of numbers. I am thinking about it in terms of the 
circumstances. And if there were indeed as has happened in 
other countries where you stopped commerce, you may not have a 
great loss of life, but you still wouldn't have to respond to 
that particular situation. So I don't think we should get into 
the numbers situation. I think it will be determined by the 
circumstances. What you are saying really is pretty dangerous.
    Mr. Shadegg. I appreciate the gentleman's creativity in 
trying to state a point of order. I don't think it states his 
point of order. However you are only stepping on your ranking 
members' time so we will now call on the ranking member of the 
full committee, Mr. Turner, for questions.
    Mr. Turner. Thank you, Mr. Chairman. As our witnesses have 
heard, we are trying to deal with a very difficult issue, which 
is how do you pass out Federal money to the States and the 
local governments for homeland security? There is a full range 
of choices, and when you look at the two pieces of legislation 
before this committee, the one introduced by Mr. Cox and the 
other introduced by the members on the Democratic side, you see 
many similarities in what we are trying to do. But there is one 
stark difference in the two approaches, and that is under Mr. 
Cox's bill, the funding for homeland security would be based on 
a determination of the threat by the Department of Homeland 
Security.
    Under the Democratic version, we suggest that there should 
be a process, a bottoms-up process, whereby we would take the 
information on general threats and vulnerabilities in our 
communities and develop what we call in our bill the essential 
capabilities that each community should have. Those 
capabilities would vary from community to community based upon 
the actual, on the ground differences in those communities.
    If, for example, you live in a community that has a lot of 
rail traffic coming through with a lot of chemical tank cars, 
or you live on an interstate highway with a lot of chemical 
tankers, then you might have a different threat and 
vulnerability or different vulnerability than perhaps a 
community without those kind of transportation systems. If you 
lived in a city that is located below a major dam, which, if 
blown up by terrorists could flood your community, you may have 
a different vulnerability. But it seems to me that what we need 
your help on--and I might direct this to you, Mr. Latham, 
because you are the director of emergency management for the 
State of Mississippi, and you happen to be from one of those 
States that did not get any money under the one grant program 
that the Congress has put into law that is based supposedly on 
threat--the high threat urban grant program.
    That program has provided funds to about 19 different 
States and 30 different areas of the country. Now that program, 
the high threat urban area grant program, is designed and 
probably was a response to the fact that our large cities said 
that they weren't getting their fair share of homeland security 
money and they didn't like the formula approach that we have 
in--some of our grant programs, so they wanted their share and 
Congress passed this high threat urban grant money. But even 
though we have written the Department of Homeland Security on 
numerous occasions asking them for the criteria on which they 
disburse that money, we have yet to get an answer.
    Now that is one choice. The other choice is to develop a 
list, as we suggest in our alternative, of the essential 
capabilities that communities across America should have to 
respond to terrorist attacks, an approach that would assess not 
only the threats, but the vulnerabilities that you may 
encounter in the respective locales.
    And it seems to me, Mr. Latham, most of the time when you 
are working in Mississippi trying to prepare for the problem of 
terrorist attack and response, that you are looking at 
vulnerabilities, but you don't have the information necessary 
to tell you whether it is a threat today or whether that same 
threat will be there tomorrow.
    Now under Mr. Cox's legislation, when you apply for a 
grant, you would be required to give a description of the 
source of the threat to which the proposed grant relates, 
including the type of attack for which the applicant is 
preparing for and seeking the grant funding. Which of the two 
approaches makes the most sense in terms of your background, 
your experience, in trying to prepare to deal with the security 
of the State of Mississippi?
    Mr. Latham. Mr. Turner, there are several issues. You 
mentioned vulnerability and capabilities being bottom up. Every 
municipality, every town, every village, every county in the 
State of Mississippi is part of that process we are doing right 
now. They are submitting their capabilities to us based on what 
they did have, not what they have based on the money we have 
given them to purchase this new equipment. We will submit that 
to the Department of Homeland Security by the deadline, which 
is the end of December. That will be the basis for the strategy 
for the next 3 years.
    But I think the question is what is the threat? Tomorrow 
the threat may be different. New information will reveal that 
this is a fluid environment. How do we build a capability if we 
don't build it in every community. I will give you a good 
example. During Operation Liberty Shield, when we received 
information from the Department of Homeland Security about what 
potential targets around the Nation, there were none for 
Mississippi. We have a nuclear power plant. We have two major 
ports on our gulf coast. We actually--we have several pipelines 
that come together where 75 percent of the jet fuel for the 
northeast comes together. The facility was guarded by one 
security individual that was on contract.
    So the message is, there is a threat in every community. If 
we don't build this capability from the bottom up for every 
community, then how do you sell our public, how do you convince 
the public that they need to be a part of this. If they do 
these capability assessments and vulnerability assessments and 
then don't provide them the funds to do what we are asking them 
to do, then how do you make them a partner in what we are 
trying to do. This has to transcend jurisdictional boundaries 
and discipline boundaries. Granted, that in the higher 
populated areas, the threat is bigger, but that does not mean 
that there is not a threat in every community of this Nation 
and our capability must be built on that assumption.
    Mr. Turner. You can determine your vulnerabilities because 
you can see them. But if you had to base your grant funding 
solely on the threat, number one, you don't always have the 
information, number 2, it may change from time to time?
    Mr. Latham. The threat information changes. So what is the 
threat? I think this is--what we know today may not be there 
tomorrow and we may have more information tomorrow. And we know 
this. There are hundreds, if not thousands, of sleeper cells in 
this country somewhere living in neighborhoods that are part of 
the community waiting for an opportunity to utilize soft 
targets or targets of opportunity. So we have to prepare for 
that. When we had the 700-plus anthrax threats, most of them 
came from rural areas. We still had to respond to them as if 
they were real. None were, but we have to respond to them.
    Mr. Shadegg. Time of the gentleman has expired. The Chair 
would now call on the gentleman from Pennsylvania, the vice-
chairman of the committee, Mr. Weldon.
    Mr. Weldon. Thank you Mr. Chairman, I want to make some 
comments, first of all, on threats. We have to be careful in 
deciding this issue and make sure that it is not just based on 
population. Before getting involved in politics, I was a 
teacher and a fire chief of my hometown as a volunteer. The 
town had less than 5,000 population. Yet the year that I was 
assistant chief, we had the largest incident in America with 
the collision of two tankers, the chemical carrying tanker, 
Edgar M. Queeney and the Quintos. Killed 29 people and burned 
out of control for 3 days.
    That entire incident was handled by an all-volunteer force. 
No paid firefighters. So what I would say to you--and we get 
this problem inside the Beltway that we have all the answers 
here. The fire service has been handling the risk of this 
country for longer than the country has been a country. And we 
are talking only the military can handle a chemical incident. 
That is BS. How many soldiers have been in a chemical plant 
when it is totally involved in fire and you have got butane or 
propane? I can tell you a ton of fire departments that have 
been. And they have been handling that with their own equipment 
and do a great job. The fire service nationwide, they 
understand what their threats are and they understand locally 
what their needs are. Instead of trying to come in and tell 
them how to redo what they have been doing for 200 years, we 
ought to ask them what their problems are.
    And that is why we created the program, assistance to 
firefighter grants so they could identify based on what their 
needs are, where the money should go without the interference. 
And I got to put a shot at the States here. The States talk a 
good game. I can count on a number of fingers on my hand the 
number of States who put significant dollars in to the fire and 
EMS community.
    In fact, there are many States who don't even take in and 
put a 2 percent surcharge on the foreign fire insurance for 
that State and give it back. Every State should have that. We 
ought to make it a requirement that if the States are going to 
determine how the money is going to be spent, then the States 
ought to put some dollars on the table, too, because it is not 
fair for them to come in and say we are going to tell you what 
your threats are and where the money should go. The States 
ought to be required to put some dollars on the table along 
with the Federal Government.
    I want to talk about the issue of regions. We have to make 
sure when we develop regions, that we don't discriminate to the 
point where we discourage people from volunteering. I am not 
against paid firefighters. They do a fantastic job and we have 
to fully support them, but we also have to support our 
volunteers. And they protect--if we ever try to replace them, 
it would bankrupt America. We have to make sure we give them 
the support to volunteer to serve their communities and not 
make road blocks.
    I want to make another point. We have to put a provision in 
this bill, I am convinced, dealing with the issue of technology 
transfer. We spend $400 billion a year on the military. We have 
developed all kinds of great capability and technology. Yet we 
don't transfer that technology to the first responder. 
Examples: We lost five or six firefighters in Boston when a 
warehouse was fully involved in fire. Two firefighters were in 
fighting the fire. Their air packs ran out. They collapsed. 
Four other firefighters went in to rescue them. All six were 
killed. Yet the military has developed technology that you can 
put on a suit that gives you the GPS location of where that 
soldier is all the time they are on the battlefield.
    And they have developed both horizontal and vertical GPS. 
The military has also developed transmitter technology that you 
can place an undergarment on a soldier that gives you the vital 
signs of the soldier, the heart rate the pulse and the 
condition. Why in the world don't we have that for every first 
responder. If we had that kind of technology the two 
firefighters that were down in Boston, we would have known 
exactly where they are and we could have gotten them out of the 
building saving them and four other firefighters.
    So in this case it is not a case of new money, it is a case 
of telling the military that they got to do a better job in 
transferring technology they developed out to the first 
responder so it can be put into place quickly. There is a ton 
of technology along that line that we have not made the case 
and we have not forced the military. Military has paid for it 
once to get that technology out to the first responder 
community.
    And we need to make sure in this bill that we make a 
statement I think to that effect. In terms of mutual aid, most 
of the municipalities already do that. I think California has 
the best mutual aid program because in California, the State 
buys fire apparatus. They preposition it around the State and 
they tell the fire stations we will give you this fire truck, 
but you have to sign an agreement. When there is a major 
incident, you are going to provide that vehicle as a support 
for that incident and you have to take it there.
    No other State does that that I am aware of, except for 
California. We ought to use that model where the States take 
their own money, preposition equipment so that when a disaster 
occurs that local department--and there are 32,000 departments 
in the country have signed an agreement that they will take 
that equipment to the scene because it has been funded not just 
with their own local money from chicken dinners and tag days, 
but it has also been funded by the State and Federal 
Government. The use of these ideas I would hope as we move this 
bill forward that we could incorporate that I think will help 
the first responder. But keeping in mind, the ultimate solution 
for the risks that we have are not going to come out of the 
Beltway. They are going to come out of the mouths of the people 
who have been doing this job, either paid or volunteer.
    Mr. Shadegg. I thank the gentleman for his comments and I 
would call upon the gentleman, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank the 
gentleman from Pennsylvania and associate myself with his 
comments. That way, I won't have to repeat them, because the 
truth is, let me just share with you as relates to North 
Carolina. Many of our fire and some of our rescue are on tax 
districts. So that means that they can enter into mutual aid. 
They have resources that are inadequate, because if you live in 
an area where you have a lot of resources, if you are in a 
rural area and have a low tax base, the problem still is there.
    Colonel Larsen, let me come back to something you said 
earlier. You just touched on the food threat. Several months 
ago, we had an exercise in North Carolina dealing with this 
whole. And I trust that as we develop this legislation we take 
a hard look at it, because if you have a large--today in this 
country as we produce many food products, in our case a lot of 
pork and poultry, it moves across this country. And we put a 
scenario in that within a matter of days, it may be just people 
we are talking about, but at the end of the day we would have 
to shut down every slaughtering plant, all the operations.
    What this would amount to is bring into a dead standstill 
the economic structures, our ability to export goods and 
services and for the people in this country, lose faith in our 
food supply, whether that were put in by terrorists or whether 
it just might be an accidental disease placed in a number of 
animals that would create a problem, specifically hoof in mouth 
disease. I think this is something we need to think about as we 
are moving.
    Gets me back to the point we made earlier. We are going to 
have to have a lot of help in the rural areas as well as the 
urban areas, because it may not be something we are thinking 
about, but I guarantee some other people are thinking about it.
    Mr. Mayor, let me come back to a point that was made before 
this committee and you made it earlier as it relates to 
regional funding, and we look at it differently in North 
Carolina because we have a lot of it in terms of regional 
partnerships. But you mentioned that and others have said so 
that this is a Federal responsibility, and a lot of cases 
federally driven that the Federal Government ought to share the 
bulk of the responsibility. What is the position of the U.S. 
Conference of Mayors on the responsibility of the Federal 
Government to pay for terrorist prevention and response? I 
assume they have a position?
    Mr. Garner. Let me say Congressman, we have supported 
legislation in the Senate that would allocate funding on a 
variety of important factors such as population, population 
density, location of critical infrastructure, threat 
vulnerability and proximity to borders.
    Mr. Etheridge. That being said then, I assume there is a 
position that it ought to be Federal, State and local mix, or 
is it total Federal?
    Mr. Garner. Again, Congressman--.
    Mr. Etheridge. Let me tell you the reason I ask that 
question because currently, whether it be a rural fire 
department or rescue squad, they are doing a lot of this stuff 
anyway. They can't determine--and I think Congressman Weldon 
touched on it, they are not going to determine whether it is 
terrorists, whether it is natural or otherwise, these folks are 
going to respond. They are going to respond to it. They have 
done it for a long period of time. And we get called up here 
sometimes as if you are going to put it in a compartment and 
that is all it is going to be. We have to be careful as we 
legislate that we don't send stuff down with the intent of 
helping that winds up categorizing and narrowing the focus that 
this money can only be used for this issue. It gets to the 
point that someone raised earlier that we aren't going to allow 
them to supplant money.
    I think Congressman Frank said earlier, if you have laid 
off a fireman and you have laid off a police officer because 
local resources are short and you get new money, is that person 
only going to be responsible for one specific area? I don't 
think so, and I don't think they think that way. And that is 
where I am trying to head with my question.
    Let me move on, if I may. This question is for you again 
Colonel Larsen. In your testimony, you state that we must 
establish priorities for first responders' funding and base it 
on risk and significant loss of life, et cetera, et cetera. In 
keeping with that statement with the point I just laid out as 
it relates to agro terrorism, whether it be induced by 
terrorists or man-made, it works out to be the same economic 
issue. Local governments, small and large, have to have a 
continual stream of money if they are going to meet these 
needs, especially today as it relates to all the changes that 
come in the mobility of population.
    Talk to me a little bit, because this is a whole different 
scenario than you laid out in your testimony, but it creates 
the same kind of impact because what terrorism is about is 
fear. You wind up with the same result.
    Colonel Larsen. When we did Crimson Sky, where Senator Pat 
Roberts played the President of the United States, we had to 
end up killing 50 million animals in this country to get foot 
and mouth disease under control. That is a national problem 
that could have enormous economic consequences. That is the 
sort of threats--I am not worried about a single truck bomb in 
a State. It is a tragedy for that community. This is an 
economic tragedy for the Nation. North Carolina sends 20,000 
hogs a day to the Midwest every day, 20,000. So it is not just 
a North Carolina problem if you have FMD.
    Mr. Etheridge. It is an American problem.
    Colonel Larsen. That is the type of threats that this money 
should focus on, that level of threat. Not a single truck bomb, 
that is a tragedy. I am talking about a national threat.
    Mr. Etheridge. Mr. Chairman, at risk of getting your dander 
up, these folks are already doing a lot of work, the private 
folks. All of these people are working together with the 
States. What they really need is a national coordinated effort 
to help.
    Colonel Larsen. Absolutely.
    Mr. Shadegg. My dander doesn't get up easily. I want to let 
you get your questions in. Although both the ranking member and 
I noted that when you said your time was almost up it was in 
fact well up. We both agreed to let you go.
    Mr. Garner. Mr. Chairman.
    Mr. Shadegg. Yes, sir.
    Mr. Garner. May I be excused? I have got to try to catch a 
6:30 shuttle back.
    Mr. Shadegg. Well, we appreciate very much your being here. 
We would request the other two witnesses stay. We do have two 
members left to question. Thank you, we appreciate it. You are 
excused.
    Mr. Garner. Thank you, Mr. Chairman. Thank you.
    Mr. Shadegg. The gentleman from Connecticut, Mr. Shays, to 
question.
    Mr. Shays. Thank you. And, Mr. Chairman, I would like to 
submit for the record an article, an NTI global security news 
wire, just read a paragraph talking about standards. It talks 
about a gentleman from GAO, Randall Yim, complains that efforts 
to establish homeland security standards aren't comprehensive 
and the focus on training equipment for first responders isn't 
enough to prepare them adequately for energies. Captain Michael 
Grossman of the Los Angeles County Sheriff's Department, who 
heads his county's Emergency Operations Bureau, warns that 
people from different parts of the government have difficulty 
understanding one another. He recalls that during the 1992 Los 
Angeles riots triggered by the beating of motorist Rodney King, 
the local police responded to a domestic dispute call and were 
accompanied by Marines for backup. As one of the police 
officers approached the house, he yelled, cover me, meaning 
watch my back. To the Marines ``cover me'' meant lay down fire, 
so they fired more than 200 bullets down the house. 
Fortunately, no one was hit.

GLOBAL SECURITY NEWSWIRE

FROM FRIDAV, OCTOBER 10, 2003 ISSUE.

GAO Pushes to Embed Homeland Security ``Standards'' Into U.S. Policy-
                    Making

By Siobhan Gorman
National Journal

WASHINGTON--Randall Yim probably doesn't fit anyone's picture of a 
homeland-security evangelist. Calmly sitting cross-legged at a 
conference table in his office in the General Accounting Office's drab 
headquarters, Yim is the antithesis of fire and brimstone. His tone is 
low-key, almost professorial. And his attire is standard-issue 
Washington professional--a dark suit and tie. But as the GAD's managing 
director for national preparedness, he is heading up the agency's new 
effort to think big and long-term about homeland security. And he is 
relentlessly traveling the country and walking the halls of Congress to 
try to prod the rest of America into doing the same.
    Yim, a native of California and an environmental lawyer by 
training, came to the nation's capital in 1998 to assume an only-in-
Washington title: principal deputy assistant secretary of the Army for 
installations, logistics, and environment. Within three months, he 
became deputy undersecretary of Defense for installations. He went on 
win earn the Defense Department's Medal for Distinguished Public 
Service in January 2001. Working with the GAD while still at the 
Defense Department, Yim caught the eye of GAD Comptroller General David 
Walker. Impressed by Yim's intellect, Walker wooed him to the GAD. Yim 
reported for duty in August 2001 and began to tackle defense and 
environmental projects. Two weeks later, terrorists slammed American 
Airlines Flight 77 into the Pentagon.
    That day, a crusader was born. ``I'm making the classic lawyer 
mistake,'' Yim confessed to National Journal. ``I had friends and 
colleagues killed in the Pentagon attack. Because of that personal 
connection, I feel a sense of urgency to go forward.'' As ``homeland 
security'' emerged as a top federal priority, Walker asked Yim to lead 
an informal task force to give the GAD a handle on the issue. Next, Yim 
became the first national-preparedness director within the agency's 
homeland-security team.
    Placing a newcomer in such a high-level role was unusual for the 
GAD, but the move was part of Walker's effort to infuse new blood into 
the staid government watchdog agency. ``Randall is very bright. He's 
very creative,'' Walker says. Colleagues describe the self-effacing Yim 
as ``an intellectual,'' ``a visionary,'' and ``a consensus builder.''
    What keeps Yim awake at night is his worry that the nation's 
approach to homeland security is unsustainable. Policy makers at all 
levels, he frets, think of homeland security as merely a ``bolt-on'' 
program. He disdainfully compares their attitude to that of the auto 
industry when it decided not to fundamentally rethink car designs in 
the 1970s after Ford Pintos started to explode when they were rear-
ended. Automakers instead chose to simply bolt on bigger bumpers. Yim's 
PowerPoint presentation to local officials even features a slide of a 
Pinto. His alternative: embedding homeland-security principles into all 
elements of public policy--from energy regulations to building codes. 
His challenge: persuading the governmental powers that-be, especially 
those in Congress, to make it happen.
    While the GAO is careful to maintain its standing as an objective 
outside evaluator of government endeavors, Yim's work takes the agency 
into a new role--that of ideas broker and pitchman. Policy advocacy is 
``unusual for GAO,'' Yim acknowledges. The GAO's advocacy role on 
homeland security--coming on the heels of the agency's lawsuit against 
Vice President Cheney to try to force him to divulge details of the 
meetings that led to the administration's energy policy--suggests that 
Walker intends to make the government's chief accountability agency a 
more potent force.
    Although the bulk of the GAO's work consists of responding to 
congressional requests, Walker wants 10 percent of his agency's efforts 
to be on major initiatives of its own. Walker described them as dealing 
with ``more-strategic, complex, crosscutting, and longer-range 
issues.''
    Walker is determined to sell Congress on the GAO's conclusions 
about long-range solutions to what it sees as significant problems. 
Walker says that his ``client''--Congress--is understandably 
preoccupied with short-term, localized issues because of lawmakers' 
focus on winning re-election. But, he adds, the tendency of Congress 
and the executive branch to think small makes devoting some of the 
GAO's energy to thinking big all the more important.
    The old reliable GAO seems well suited to thinking about the 
massive problem of homeland security in the post-9/ll world. It also 
seems suited to delivering harsh messages about what the nation must do 
to try to protect itself. In Yim's view, at least, there's a crying 
need for the government to adopt a take-your-medicine-and-eat-your-
vegetables approach. As Yim patiently outlined the GAO's master plan 
for homeland security--flow charts and all--during two hour-long 
sessions in his office, he took a page from the environmental chapter 
of his life. In the 1970s, environmentalists began establishing 
standards aimed at ensuring that the government and companies were good 
stewards of Earth's resources. Similar standards, he says, are needed 
for homeland security. For example, Yim would like to see a standard 
for ensuring that financial markets have the technology in place to 
withstand a variety of terrorist attacks.
    Currently, the Department of Homeland Security, Congress, and the 
private sector are haphazardly trying to establish standards for 
various aspects of homeland security. But Yim worries that unless these 
efforts become more unified and standardized, dangerous gaps are 
inevitable.

Thinking Big
    Randall Yim isn't content to just tinker. ``One of the concerns I 
have about homeland security,'' he said, ``is, we have to begin 
addressing the core issues.'' He quickly ticks off several: Who is in 
charge? What should be done, and who should be doing it? Who should pay 
for these changes, and how? How do you hold people accountable? How do 
you track progress?
    As homeland-security strategies proliferate at all levels of 
government, Yim is dismayed to see that they are rarely connected to 
cost considerations - or to one another. He wants to bring the high-
flying talk of strategies down to ground level, where planners could 
focus on such issues as how much it costs states, localities, and 
private businesses when the federal government raises the national 
terrorism threat level to, say, Code Orange - where it was for nearly 
nine weeks this year.
    After getting a better sense of costs, the planners' next step 
would be to assess what homeland-security precautions are being taken 
and whether they are actually making the nation safer. Right now, Yim 
said, federal money is flowing out, and there's no way to know whether 
it's doing any good. Just last week, President Bush signed the $31 
billion Homeland Security appropriations bill, which he declared ``a 
major step forward'' in efforts ``to make our nation more secure.'' But 
no one yet knows how much added security the $31 billion will really 
buy.
    Some $4 billion of the total will go toward resolving the myriad 
complaints of so-called first responders. Billions of dollars are being 
spent on first responders, not because the Department of Homeland 
Security has determined that the country's greatest needs include 
ensuring that firefighters nationwide have hazmat suits, but rather 
because public officials were eager to heed the demands of the heroes 
of September 11. Plus, lawmakers all have large numbers of firefighters 
and police officers in their districts.
    Among the difficult post-9/11 questions is whether spending money 
on first responders is the best way to enhance local security. If 
beefing up first-responder squads is a wise way to spend federal 
homeland-security funds, are hazmat suits needed more than upgraded 
walkie-talkies? And are they needed more than computer access to a 
terrorist watch list?
    To begin intelligently answering these questions and weighing one 
demand against another, Yim said, the GAO should establish standards 
that detail what government and the private sector must do in order to 
assure a minimum level of security. There could, for example, be a 
standard for ensuring that a ship's cargo is not tampered with en route 
from Singapore to New York City.
    Yim is not alone in seeing the creation of homeland-security 
standards as crucial. John Cohen, a cop-turned-homeland-security 
consultant, has helped states and localities, including Massachusetts 
and Detroit, draw up homeland-security strategies. How important is 
standardization? ``It's critical,'' Cohen said. ``You have got to get 
everybody talking the same language.''
    Several commissions have recommended the adoption of homeland-
security standards. Most recently, the Council on Foreign Relations, in 
a project with former Sen. Warren Rudman, R-N.H., advocated national 
standards for first responders as the council lamented what it saw as 
their general lack of preparedness. The Gilmore Commission, headed by 
former Virginia Gov. James Gilmore, also strongly advocated standards 
in its December 2002 report.

Scattershot Standards
    No longer the exclusive territory of bean-counters, the wonkish 
topic of homeland-security standards has come into vogue on Capitol 
Hill in recent weeks. Lawmakers are targeting their standardization 
efforts at emergency workers. Meanwhile, various tentacles of the 
Homeland Security Department are grappling with the creation of an 
assortment of standards. Private industry may be the furthest along.
    Several members of Congress, relative newcomers to the standards 
debate, have quickly found religion. ``We are told Moses traveled in 
the desert for 40 years because he didn't have a plan,'' Rep. Carolyn 
Maloney, D-N.Y., said at an October 2 press conference announcing 
legislation to establish national standards for first responders. 
``What we're trying to do with this bill is to get a plan, get 
standards, so that we know where we are and where we are going.''
    In late September, Rep. Jim Turner of Texas, who is the ranking 
Democrat on the House Select Committee on Homeland Security, started 
the standards stampede by introducing the PREPARE Act. Turner's bill, 
which has attracted a host of Democratic co-sponsors, would require the 
Department of Homeland Security to establish a task force to recommend 
first-responder equipment and training standards. Then, the secretary 
would be required to submit a plan for getting states and localities to 
adopt the voluntary standards. (Federal funds would be tied to 
compliance.) Turner's initiative was followed by the introduction of a 
similar bill sponsored by Rep. Christopher Shays, R-Conn., the chairman 
of a Government Reform Committee subcommittee, and Maloney, the head of 
the House Democrats' Homeland Security Task Force.
    And on October 9, California Republican Christopher Cox, who chairs 
the House Select Committee on Homeland Security, unveiled part of a 
comprehensive homeland-security bill that includes a range of 
proposals--from aligning funding for state and local responders with a 
given locale's vulnerability, to bolstering the Homeland Security 
Department's intelligence arm. Cox said in an interview that first-
responder standards are ``something that will be covered in our 
legislation,'' adding that he will work with Turner, Shays, and 
Maloney. Cox said he plans to mark up his bill before the end of the 
month.
    At the Department of Homeland Security, Alfonso Martinez-Fonts, 
chief liaison to the private sector, and Frank Libutti, undersecretary 
for information analysis and infrastructure protection, have been 
reaching out to private-sector groups to discuss new safety standards 
for the financial and telecommunications sectors, among others. Other 
officials at the department are working on physical-security standards 
for chemical plants and cargo containers. Still others are forging 
ahead on standards for emergency-response equipment.
    In the private sector, ASIS International, a trade group for the 
security industry, has been developing standards since June 2001. 
Earlier this year, it published guidelines to help companies perform a 
terrorism risk assessment, said Don Walker, who co-chairs ASIS's 
guidelines commission and is chairman of Securitas Security Services 
USA. ``There's bits and pieces of work being developed by lots of 
organizations,'' he said. ASIS will soon release guidelines for how 
private industry should respond to announced changes in the national 
threat level. The trade group is also working on guidelines for hiring 
and training private security guards. And Walker says his commission 
has listed 30 priority areas in which it wants to develop homeland-
security guidelines.
    Still, Yim complains that the efforts to establish homeland-
security standards aren't comprehensive. And the focus on training and 
equipment for first responders isn't even enough to prepare them 
adequately for emergencies. Capt. Michael Grossman of the Los Angeles 
County Sheriff's Department, who heads his county's emergency 
operations bureau, warns that people from different parts of the 
government have difficulty understanding one another. He recalled that 
during the 1992 Los Angeles riots triggered by the beating of motorist 
Rodney King, the local police responded to a domestic-dispute call and 
were accompanied by marines for backup. As one of the police officers 
approached the house, he yelled, ``Cover me,'' meaning ``Watch my 
back.'' To the marines, ``Cover me'' meant ``Lay down fire,'' so they 
fired more than 200 bullets toward the house. Fortunately, no one was 
hit.

ISO: In Search of a Plan
    Creating standards, Yim insists, is the best way to figure out 
who's responsible for each aspect of homeland security. Again, he looks 
to the environmental realm for a positive example: the International 
Organization for Standardization. It's known as ISO, which was derived 
from the Greek isos, meaning ``equal.'' The group's American corollary 
is the American National Standards Institute. Yim and his colleagues 
want to translate what ISO has done for international environmental 
policy and apply it to U.S. homeland security.
    Launched in 1947, ISO aimed to blend private and public demands for 
cost control and quality control, so that a company would not be put at 
a competitive disadvantage for producing a high-quality product. The 
organization has since established more than 13,700 voluntary standards 
in business and environmental management that apply to everything from 
the size of a screw thread to proper procedures for recycling aluminum 
cans. ISO has two series of standards: ISO 9000 rules deal with general 
management specifications; ISO 14000 rules specify what a company must 
do to minimize environmental damage. By defining how things are to be 
done, these standards clarify both who's in charge and what they should 
be doing.
    Yim sees promise for homeland security in following the lead of the 
environmental-standards efforts, which began with rules for toxic-waste 
cleanup and expanded to include such details as how much radiation a 
computer screen is allowed to emit. ISO 14000 was among the reforms 
inspired in the late 1970s by the Love Canal pollution disaster. And as 
ISO 14000 evolved, it became recognized essentially as common law, so 
that a company hit with a lawsuit can be held responsible, in court, 
for failing to meet those standards. For business, Yim said, the 
selling point was ``increased reliability, decreased liability.'' That 
is, companies can feel assured that if they are meeting the standard, 
they won't be held accountable for not doing more.
    In the realm of homeland security, Yim sees endless opportunities 
for crafting standards. To name a few: container security; protocols 
for assessing a city's vulnerabilities; power-grid protection; building 
codes; evacuation capacity for main thoroughfares; airline screening 
procedures; and, of course, emergency-response teams. There could also 
be standards for a hospital's capacity to triage patients or for a 
communications system's ability to operate despite a power outage. 
(During the Northeast's massive blackout this August, the 911 emergency 
communications systems failed in Detroit and New York City.)
    Yim argues that, over time, homeland-security standards would 
transform the way the government and industry protect the nation. 
``It's a strategic approach that links theory to action and, I think, 
would significantly advance where we need to go as a country in 
homeland security,'' he says. ``And it would give us a measure of 
whether we're making progress in being better prepared.'' Establishing 
standards would help ensure that there are no weak links in the 
``homeland-security supply-and-demand chain,'' he added. That should 
make the nation get more for its homeland-security dollar.
    Standards would also provide a basis for gathering uniform data on 
what is or isn't effective, and for performing cost-benefit analyses. 
Plus, involving the business sector at the outset would ensure that 
these standards ``are not blind to costs,'' Yim said.
    Industry standards that the government sees as voluntary could end 
up being mandated by insurers offering terrorism coverage. And, Yim 
said, citizens would probably be willing to pay more for a government 
service--their local 911 system, for example--if they had the assurance 
that the system met a national standard of quality.
    Developing homeland-security standards wouldn't be quick or cheap, 
Yim admitted, but he argues that it's time for homeland-security policy 
to become less panic-driven. He foresees government and industry 
working together to craft each individual standard, and he thinks that 
the GAO should form the teams to design each one.
    Since the GAO is the investigative arm of Congress, Congress is its 
top client, of course. For Yim and his team, the key to success will be 
whether they can sell the Hill on their homeland-security vision. 
Although currently fixated on first responders, lawmakers such as Shays 
and Maloney are open to the idea of standards for other homeland-
security arenas as well.Maloney said she's particularly open to 
standards involving cargo, power grids, water, and nuclear plants.
    In fact, perhaps a homeland-security bill already in circulation 
will turn out to be just the vehicle Yim and his team need. With that 
in mind, they have been quietly buttonholing lawmakers in both parties. 
Yim's hope is to incorporate a broad notion of homeland-security 
standards into legislation before Congress adjourns for the year. His 
immediate window of opportunity will soon close, he fears: Thinking big 
homeland-security thoughts is unlikely to top many lawmakers' agendas 
in an election year.

    I don't know if we have that kind of extreme, but what I 
haven't heard today, Colonel Larsen, is the issue of standards. 
I want you to first respond to the report done by Senator 
Rudman. They talk about potentially $999 billion needed, and 
then when we question them they said, heck, it could be a lot 
less. But just speak to the issue.
    Colonel Larsen. Well, I told you, I was asked to be on that 
panel and I just--the methodology bothered me. Well, two things 
bothered me. If you look at the commissioners on there, not one 
of them were from the State and local communities, no 
experience except Senator Rudman, who 25 years ago had been a 
State Attorney General. I mean, you know, I have got great 
respect for Judge Webster and all the other folks on there, but 
they weren't State and local people. Their methodology was to 
go to all these different organizations, the firefighters, the 
EMS, and, what is your wish list? What was their wish list? I 
mean, if I use that to--.
    Mr. Shays. Okay. So you question how they figured out the 
dollars. Do you question their basic analysis that we needed to 
set standards?
    Colonel Larsen. No. The standards, that is a different 
question. I question the money figure for their methodology 
when they say how much do you need. Okay. The standards, I 
think that is a critical thing.
    Mr. Shays. You could question it in another way. Since they 
didn't set standards, they would have no way of knowing what 
was needed. So on both accounts.
    Colonel Larsen. A very good point. If you go to the Center 
for Domestic Preparedness in Anniston, Alabama, they have a 
room this size and they have all this equipment laying out 
there that first responders can buy. And the director took me 
around and said, well, here, they are selling this to some of 
the first responders. He said the bad news is it protects them 
against chemical vapors but not liquids. I said, so why are you 
letting them sell it like that for? And he said, because the 
Federal Government doesn't set standards. But if you go down to 
Home Depot and buy an electrical cord, there are standards.
    Mr. Shays. I hear you. But what I am trying to, in my 3 and 
half minutes--.
    Colonel Larsen. Sorry.
    Mr. Shays. I used up some of it improperly, too. But talk 
to me about what we do to get standards, how long you think it 
will take, et cetera.
    Colonel Larsen. Length is going to be very frustrating to 
all of us, because I think you should do it right instead of 
wasting money. Perhaps we need something like that Underwriters 
Laboratory. Maybe a quasi-government something over here. To 
me, as a taxpayer, I wish the Department of Homeland Security 
can do it. I am not sure that system is going to work. But we 
need some sort of independent organization.
    Mr. Shays. First off, they are required to set standards.
    Colonel Larsen. They have been slow.
    Mr. Shays. Okay.
    Colonel Larsen. As a taxpayer, I would prefer that they do 
it. I mean, I would like to get them, I just want to make sure 
we get them right.
    Mr. Shays. By December, they have to tell us capacity, 
correct? We are getting all the local communities and States, 
they are going to come back and they are going to tell us 
capacity. Capacity tells us what they can do. What we want in 
standards is to know what they should do and to know who should 
do it, and who has the threat that has to need--for the need to 
be able to respond to it. So, for instance, I would argue that 
New York City probably needs more resources and Greenwich, 
Connecticut right near it than Oxford, Connecticut a little 
further away, though Oxford has an airport. And so talk to me a 
little bit more about standards.
    Mr. Latham, do you want to jump in?
    Mr. Latham. I will talk about standards in terminology, 
standards in incident planning, and those kind of things, 
because the article you mention I think addressed that. And in 
Mississippi what we have done by Governor's executive order is 
standardized incident management, requiring every first 
responder to operate under a standard system, the National 
Interagency Incident Management System, so that you have common 
terminology, unified commands so that everybody plays a part in 
the decisionmaking and then you have one incident--.
    Mr. Shays. That speaks to uniformity. But let me ask you 
this. Don't you believe that some communities in Mississippi 
are more likely to have to face a threat than others? Some may 
have a chemical plant near, some may be on a throughway, some 
may just be totally out of the way. Are you treating them all 
the same? Are you doing it on a per capita basis?
    Mr. Latham. What we are doing is training everybody to the 
same standard. And I don't believe that the standards should 
vary, regardless of the level, because--I mean, you don't 
really know where the next incident will be, and we have to 
train everybody to the same standards. As far as equipment 
standards, I agree, that is a little bit more difficult. But 
there needs to be a standard in that equipment, and I think it 
should be in the Department of Homeland Security and the 
science and technology department. Whether they have the 
capacity to do that or not, I am not sure.
    Colonel Larsen. Maybe your initial standard would be that 
you need to get the capability there within X number of hours. 
And over time we can move that from 10 to 5 to 4, but--and we 
just can't have it in every community; but if the key was we 
can get the class A suit to a site within 5 hours. And so if we 
had that as a standard, then we could work toward that goal.
    Mr. Shays. That helps me to discuss one part of the 
standard. What I am trying to wrestle with is how do we as a 
government decide who in Mississippi gets it and who doesn't. 
And that seems, to me, you set certain standards. You say there 
is a certain threat level here, we need certain capacity. I 
mean, for instance, the fire department in the community could 
tell us that they can put out three fires at one time, but the 
standard may say you don't need to. Or you need to be able to 
put four fires out. That is the standard. Then if their 
capacity doesn't match the standard, we know it is out of sync. 
Or it could be the reverse. They could be able to put out three 
fires, and we say you only need to put out two. That is kind of 
what I am wondering about.
    Colonel Larsen. EPA says there is 123 chemical storage 
facilities that if attacked with truck bombs could threaten the 
lives of a million people. I think those 123 sites are clearly 
defined threats that should have the best response capability, 
if you want a specific example. But you can't protect every 
railcar, but there are some big threat areas.
    Mr. Shays. Thank you.
    Mr. Latham. Mr. Chairman, I would like to comment, too, 
because there are a lot of standards out there, not the least 
of which are some that have been developed jointly between NEMA 
and FEMA and the EMAP program, which is an accreditation 
program that takes assessments and capabilities with State and 
local governments of what is already in place, that we need to 
incorporate those in these standards to make sure that we are 
not duplicating something that is actually already there.
    Mr. Cox. The gentleman's time has expired. The gentleman 
from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    There seems to be confusion on the local level about 
applying for these funds in the first place. And what I would 
suggest, Mr. Chairman, when we finally put together our final 
bill, that we do what FEMA does in terms of the Fire Act. They 
have gone all over the country and in certain regions and 
educated firefighters on how to apply. Of course, there is 
something to grant application, obviously. And this is so 
important, and I know firefighters tell me all the time, thank 
you for doing this and, you know, we have cleaned up our act on 
our application. We know primarily now why we didn't get a 
positive response. Do you think that--if that is the case, do 
you think, very quickly, these two bills improve or could 
improve or would improve upon that situation?
    Mr. Latham. Let me address your first comment because we 
did that in Mississippi. We had town meetings, we had regional 
meetings. We had every town, village, city, and county 
represented. We took the majority of the paperwork burden away 
from them, and their application is only one or two pages. That 
includes an equipment list. We are holding them to what the 
priorities are; that is, having a personal protective equipment 
for their first responders, having a detection equipment where 
it is needed and having some decontamination. After that, you 
know, then it becomes a little bit more complex. We go to the 
regions and develop a much higher level of capability.
    But we did that, and actually I have not had any calls from 
any mayor, any supervisor, and I am not sure that the 
Congressman has, because if he had, I would have heard about 
it. But no complaints about the process. It is a little 
burdensome once we get into the actual award because of the 
paperwork that has to go up to ODP and back down. ODP should 
not have to approve every city, town, village's equipment list.
    Mr. Pascrell. What about point B? Do you think these two 
bills address any confusion that might exist? Because somehow 
the money is not getting through to many of these communities. 
You listen to the mayors.
    Mr. Latham. And I can't address--I can tell you in 
Mississippi it is. And maybe the process is broken somewhere 
else, but it is working in Mississippi.
    Mr. Pascrell. The Homeland Security money we are talking 
about?
    Mr. Latham. Yes, sir.
    Mr. Pascrell. Okay.
    Mr. Latham. And we obligated the money on both the 2003 and 
2003 supplement within the 45 days, actually, within 30 days.
    Mr. Pascrell. Was part of that money overtime, for 
instance?
    Mr. Latham. Just equipment money.
    Mr. Pascrell. Well.
    Mr. Latham. And we didn't--.
    Mr. Pascrell. Well, it is a very different situation 
depending upon the region.
    Mr. Latham. Well, now when we had Operation Liberty Shield 
and then provided some of that infrastructure protection, 
overtime and stuff, when the applications came in we processed 
them and moved them on up to ODP. So we haven't had any 
complaints on any of the process.
    Mr. Pascrell. Thank you. The second point is a point that 
Curt Weldon made, Mr. Chairman, before when you stepped down 
for a moment. Technology transfer. We just had a very, very 
well attended meeting yesterday afternoon on helping--with the 
military particularly--the Mayo Clinic on brain injury 
research. A million Americans are affected every year, and 
there is a lot of our soldiers have been affected, obviously, 
unfortunately, and wounded in Iraq. The research that is being 
done by the military is being carried over into the civilian, 
and it really is working. It would seem to me--I don't know how 
we would do it, but we need some agency--well, we already have 
agencies. We have enough agencies. Somebody has to have the 
responsibility of coordinating this technology transfer down to 
the civilian, and particularly, particularly in Homeland 
Security. I think we are missing out, the military. We invest a 
tremendous amount of money in that budget. And you can't tell 
me that that would not be helping us in many ways, and I think 
we need to explore those ways. And I think that is what Curt 
was talking about. And I would recommend it, I really would. I 
think it is important that we utilize it so that the ripple 
effect is felt far beyond the military as we have done in 
medicine.
    Thank you, Mr. Chairman.
    Mr. Cox. I want to thank all of our members and especially 
our panel of witnesses, including Mayor Garner, who has left 
already to catch his flight. You have done a splendid job of 
educating us today. We appreciate it, we look forward to 
continuing to work with you. You are now excused, and this 
hearing is adjourned. Thank you.
    [Whereupon, at 6:15 p.m., the subcommittee was adjourned.]

                            A P P E N D I X

                              ------------

                   Material Submitted for the Record

 Questions for the Honorable James A. Garner from the Honorable Bennie 
                              G. Thompson

Question: 1. A Council on Foreign Relations Task Force found recently 
that there are no agreed upon standards for emergency preparedness and 
no way to measure how prepared a locality is or should be. Do you feel 
that it is important that there be some way to measure preparedness 
levels and preparedness needs? Do you feel that it is important for us 
to set a comprehensive goal for ourselves, by which we can measure 
progress? No Response has been recieved.

Question: 2. When states and regions assess their emergency response 
needs, are they normally based on threats (that is, what terrorists 
want to do to me), vulnerabilities (that is, what targets are in the 
vicinity and how secure are they), or a combination of the two? 
Shouldn't a Federal grant program take into account the total risk, 
both threat and vulnerability? No Response has been recieved.

Question: 3. Legislation introduced by Chairman Cox proposes to have 
grants reviewed by the Information Analysis and Infrastructure 
Protection Directorate of the Department. However, past testimony 
before the Select Committee has raised doubts about the ability of this 
Directorate to develop comprehensive threat assessments and otherwise 
carry out its mission. I am aware of no capability that it has to 
review grant applications. Do you believe that the Information Analysis 
and Infrastructure Protection Directorate should be put in charge of 
determining the distribution of grants to our nation's first 
responders? No Response has been recieved.

Question: 4. H.R. 3266 would formalize a structure for allocating 
grants according to the assessed threat of terrorist attack. A program 
like this is already in place, namely the High Threat Urban Area grant 
program. There have been two rounds of funding through the High Threat 
Urban Area grants. The first round distributed grant funds to seven 
urban areas; the second round sent grant funds to 30 areas in 19 states 
and the Capitol region, including additional funds to the first seven. 
Do you anticipate that H.R. 3266 would similarly send the totality of 
first responder grant funding to only a few parts of the country? No 
Response has been recieved.

Question: 5. Would it be useful for first responder agencies to know 
how much funding is needed to help prepare for terrorist attack over 
the next five years, as provided in the PREPARE Act? Do we need a 
national goal to work towards? No Response has been recieved.

Question: 6. Who should determine the needs of our first responders--
analysts in the Information Analysis and Infrastructure Protection 
Directorate of the Department, or the First Responders themselves? No 
Response has been recieved.

    Questions for Colonel Randy Larsen from the Honorable Jim Turner

1. A Council on Foreign Relations Task Force found recently that there 
are no agreed upon standards for emergency preparedness and no way to 
measure how prepared a locality is or should be. Do you feel that it is 
important that there be some way to measure preparedness levels and 
preparedness needs? Do you feel that it is important for us to set a 
comprehensive goal for ourselves, by which we can measure progress? No 
Response has been recieved.
2. To your knowledge, did anyone foresee that the Murrah Federal 
Building in Oklahoma City would be the target of a devastating 1995 
terrorist attack? Do you believe that Oklahoma City, today, would rank 
very high on a list of likely terrorist targets? Given that it is very 
difficult to predict where terrorists will strike next with any level 
of specificity, would you agree that it is better to increase our level 
of preparedness against terrorist attacks across the board? No Response 
has been recieved.
3. Legislation introduced by Chairman Cox proposes to have grants 
reviewed by the Information Analysis and Infrastructure Protection 
Directorate of the Department. However, past testimony before the 
Select Committee has raised doubts about the ability of this 
Directorate to develop comprehensive threat assessments and otherwise 
carry out its mission. I am aware of no capability that it has to 
review grant applications. Do you believe that the Information Analysis 
and Infrastructure Protection Directorate should be put in charge of 
determining the distribution of grants to our nation's first 
responders? No Response has been recieved.
4. Would it be useful for first responder agencies to know how much 
funding is needed to help prepare for terrorist attack over the next 
five years, as provided in the PREPARE Act? Do we need a national goal 
to work towards? No Response has been recieved.
5. Who should determine the needs of our first responders--analysts in 
the Information Analysis and Infrastructure Protection Directorate of 
the Department, or the First Responders themselves? No Response has 
been recieved.

Questions and Responses for Mr. Robert Latham from the Honorable Bennie 
                                Thompson

Question: 1. In your testimony, you requested that the States be 
provided flexibility within DHS guidelines to utilize terrorism 
preparedness funds, including increased authority for the States to 
approve changes to local equipment requests. The PREP ARE Act (H.R 
3158) would require States to develop a five year plan to meet their 
needs for essential terrorism preparedness capabilities, and to 
implement that plan based on the priorities of the State and local 
governments. Would such a system meet your requirements for 
flexibility, and what other measures would you suggest to ensure that 
States and localities have the flexibility to meet their preparedness 
needs? .
Answer: I would urge Congress not to impose additional requirements 
such as a 5-year plan upon the States. Currently each state is 
completing their Strategic Plan that wi11 guide priorities for the next 
3 years. If Congress desires a more long-range plan then expand the 
current requirement for a strategic plan from 3 years to 5 years. In 
either case I agree that long-range plans are critical to keep us 
focused. However, each and every year our priorities change based on 
the threat environment and our capabilities improve. The flexibility I 
referred to was based on this fact. A three or five year plan can 
provide a road map but flexibility must be allowed for states to make 
adjustments in that period of time.

Question: 2. In response to questions from the Subcommittee, you 
described in detail the planning process that the State of Mississippi 
utilized to quantifY and prioritize homeland security needs throughout 
the State. In your experience, has this been an effective process to 
ensure that preparedness needs are met throughout the State, and are 
you aware of any other States who have adopted your coordination model. 
In addition, how long did this coordination process take, and would you 
recommend that such a process be required for any State requesting 
homeland security funds from the Federal government?
Answer: For our State, I believed that without local buy-in the whole . 
initiative was doomed to failure. I can say that this process worked 
for our State. Whether or not it will work for other states I can't 
say. As I stated during my testimony, ``one size does not fit all''. 
Every community and every state is different. As far as the length of 
time the process took, we began meeting with the various parties long 
before we received any funding to get everyone focused on the strategy. 
This gave us a head start. Once funding was received I met with the 
parties again to discuss the formula we would use for distribution of 
funds and the application process. After that the only challenges were 
keeping the applicants focused on the state strategy and priorities and 
the administrative burden placed on the state to manage such a large 
number of sub-grants.

Question: 3. H.R. 3266 allows first responder grant funds to be spent 
on the purchase or upgrading of equipment; exercises to strengthen 
emergency response; training in the use of equipment; and training to 
prevent terrorist attack Conversely, the PREP ARE Act allows first 
responders to spend grant funds as necessary to provide the essential 
capabilities their jurisdiction needs. Isn't it possible that H.R. 3266 
would allow first responders to use funds year after year without 
meeting an of their preparedness needs?
Answer: It is certainly possible that H.R. 3266, even with its broad 
intent, might not meet all of the preparedness needs.' That is why I 
firmly believe that FLEXIBILITY is the key to meeting the initial and 
subsequent needs of our first ' responders. This is a fluid environment 
with a changing threat. If states and local jurisdictions are not 
allowed the flexibility to meet the changing threat, it's quite 
possible that our capabilities will not increase at the same rate that 
the risks and vulnerabilities increase.

Question: 4. In addition to providing first responder grant funds, 
should the Department of Homeland Security be giving states and local 
communities guidance in what equipment and training to buy? Isn't this 
guidance and planning necessary for equipment interoperability?
Answer: I believe that through the authorized equipment list provided 
with the ODP Grant package that we have the guidance we need. The 
equipment lists are and should be generic because our first responders 
use different types of self-contained ' breathing apparatuses as well 
as other types of equipment. Specifying certain types of equipment 
would limit accessibility, drive the price up, and require departments 
to buy equipment they are not necessarily familiar with or care for. 
Interoperability is certainly an issue but I think it really only 
applies to communications. In this case many of the problems are not 
equipment interoperability but personnel interoperability--turf wars. 
Technology is now available to fix the communications equipment 
interoperability problem and we should focus on this as a fix and not 
rebuild our communication system.

Question: 5. The grant process in H.R. 3266 is open to states, 
interstate regions, and'intrastate regions. This would potentially 
require the Under Secretary of Information Analysis and Infrastructure 
Protection to sort through hundreds of applications on a regular basis, 
making detailed threat comparisons for each. Does it make sense to 
streamline the funding process to set a number of applicants, each of 
which builds in regional planning to its own process?
Answer: I think the bigger issue here is making sure whatever process 
is selected, that each state remains the primary point of contact and 
coordinator. If the current role of the state is altered it will 
undermine everything we have accomplished so far. In Mississippi we are 
doing planning on a regional basis and our response is based on a 
regional concept. If we look beyond our state borders, there should be 
some agency, such as FEMA Regions, as the coordinator to assist with 
multi-state planning.

Question: 6. There have been two rounds of funding through the High 
Threat Urban Area grants. The first round distributed grant funds to 
seven urban areas; the second round sent grant funds to 30 areas in 19 
states and the Capitol region, including repeat funds to the first 
seven. Do you anticipate that H.R. 3266 would similarly send the 
totality of first responder grant funding to a few parts of the 
country?
Answer: As I stated in my testimony, I believe that if we are to build 
a comprehensive strategic plan to secure the homeland, it must involve 
every Citizen, in every community, in every county, in every state. 
Having said that, I also believe that there must be continued funding 
of this initiative in every state, possibly at a reduced level. I also 
believe, for obvious reasons that based on threat analysis and 
vulnerability future funding must target the higher populated areas. I 
am totally opposed to sending all first responder grant funds to a few 
areas of the country.

Question: 7. Terrorist threat depends on what a terrorist intends to 
attack. Terrorists intend to attack the United States where the 
defenses and countermeasures are weakest. Terrorists will presumably 
know what areas have been deemed worthy of receiving grant funds. So, 
areas that DHS determines to be ``low threat'' will automatically 
become higher threat. So doesn't it make sense to ensure that all 
communities have some baseline level of preparedness?
Answer: I totally agree. My response to the previous question. 
reinforces my opinion in this matter. As I stated during my testimony 
``not every community needs a hazmat capability, but every community 
needs a basic capability''. I also agree that if we focus on the 
obvious high-threat targets we leave ourselves vulnerable in other 
places making sma1Jer communities that are low-risk, very attractive to 
our enemies.

Question: 8. Under H.R. 3266, grant applications would be rated 
according to the threat faced by a specific grantee--a state, a group 
of states, or as small an entity as a single city. Are the current 
intelligence and our ability to assess the terrorist threat faced by a 
specific city or county good enough to allow numerical comparisons 
among different grant applicants?
Answer: Again I think we have to be very careful in the analysis of our 
information. As good as our intelligence is, it is not perfect. 
Numerical comparisons obviously unintentiona1Jy create targets of 
opportunity for our enemies. This supports my theory behind building a 
national capability in every community.

Question: 9. H.R. 3266 requires grant applicants to provide, as a part 
of the application, a ``description of the source of the threat to 
which the proposed grant relates, including the type of attack for 
which the applicant is preparing for in seeking the grant funding.'' Do 
states and regions typica1Jy have access to the intelligence necessary 
to know the exact source of a terrorist threat that may affect them? 
Aren't a Jot of first responder grants used to improve general 
emergency readiness rather than to improve defenses against a specific 
type attack?
Answer: The flow of intelligence information is getting better but it's 
not perfect. The current challenge is the distribution of information 
below state level. The intelligence information enables us to better 
prepare, but as stated in an earlier response, flexibility in use of 
funds would enable states to adjust our preparedness plans and 
capability as intelligence information changes. Yes, most of the first 
responder grants are used to improve genera] emergency readiness 
because our first responders have been under funded for so long. We 
have to develop and enhance our response capability first and then 
focus on deterrence.

Question: 10. Since 9/11, the federal government has spent four to five 
billion dollars each year on first responder grants. I am unaware of 
any justification for why this is the right amount-certainly the amount 
isn't based on an assessment of threat, of vulnerability, or of first 
responder needs. Would you support legislation that tied the first 
responder budget to some assessment of what is needed by the nation's 
first responders?
Answer: I believe that the funding should be driven by some sort of 
assessment of the capability based on the threat and risks. The 
National Emergency Management Association's Emergency Management 
Accreditation Program (EMAP) provides a very valuable tool to evaluate 
each state's capability. Expansion of this program to the local level 
using the NEMA Capability Assessment for Readiness (CAR) . could 
provide the yardstick needed to drive future funding. I also believe 
that we must continue to build an ``all-hazards'' capability and resist 
the temptation to focus solely on one risk.

Question: 11. Under H.R. 3266, there is no way for a region to know 
whether it will be receiving first responder funds. How would first 
responder agencies plan their equipment purchases, training, exercises, 
and other components of emergency readiness without having a sense of 
what funds would be coming?
Answer: As I have stated before, the fear at the state and local level 
for our first responders is what is the ``Congressional will'' at it 
relates to a long-term commitment to this initiative. We are currently 
taking it a year at a time not knowing what funding will be available 
in out-years. We enter each funding cycle as if it may be the last. 
Accomplishing the goals outlined in our 3 or 5 year plan is totally 
dependent upon funding.

Question: 12. States and loca] jurisdictions have prepared detailed 
analyses and assessments to meet ODP requirements. Have these 
assessments been valuable to local and state planning efforts, and if 
so, shouldn't ODP be involved in grant funding based on those 
assessments?
Answer: Yes, these assessments have been a valuable tool to our state, 
regional, and local planning. ODP involvement would be beneficial as 
long as another level of bureaucracy does not further delay the current 
process.

 Questions and Responses for Mr. Robert Latham from the Honorable Jim 
                                 Turner

Question: 1. A Council on Foreign Relations Task Force found recently 
that there are no agreed upon standards for emergency preparedness and 
no way to. measure how prepared a locality is or should be. Do you feel 
that it is important that there be some way to measure preparedness 
levels and preparedness needs? Do you feel that it is important for us 
to set a Comprehensive goal for ourselves, by which we can measure 
progress?
Answer: Yes I do feel that is important that there be some way to 
measure preparedness levels and preparedness. As I stated in a previous 
question the National Emergency Management Agency's (NEMA) Emergency 
Management. Accreditation Program (EMAP) could be enhanced to provide 
such a tool for measuring the preparedness 1evels and preparedness 
needs. Use of a tool such as the NEMA Capability Assessment for 
Readiness (CAR) as a requirement at the local level could provide 
valuable information to determine a local and state's preparedness 
level. Again we must focus on an ``all hazards'' plan.

Question: 2. When states and regions assess their emergency response 
needs, are they normally based on threats (that is, what terrorists 
want to do to me), vulnerabilities (that is, what targets are in the 
vicinity and how secure are they), or a combination of the two? 
Shouldn't a Federal grant program take into account the total risk, by 
which we can measure progress?
Answer: Actually we use a combination of threat, vulnerability, and 
capability to determine our needs. I'm not sure that I understand what 
you mean by ``total risk'' but whatever we do should be based on an 
assessment of the threat and vulnerabilities compared to a 
jurisdiction's capability.

Question: 3. Legislation introduced by Chairman Cox proposes to have 
grants reviewed by Information Analysis and Infrastructure Protection 
Directorate of the Department. However, past testimony before the 
Select Committee has raised doubts about the ability of this 
Directorate to develop comprehensive threat assessments and otherwise 
carry out its mission. I am aware of no capability that it has to 
review grant applications. Do you believe that the Information Analysis 
and Infrastructure Protection Directorate should be put in charge of 
determining the distribution of grants to our nation's first 
responders?
Answer: I do not believe I am in a position to determine what the 
capability of the IA/IP Directorate may be. Even though I believe that 
the IA/IP Directorate should have a role I do not believe they should 
be put in charge of determining the distribution of grants to our first 
responders.

Question: 4. H.R 3266 would formalize a structure for allocating grants 
according to the assessed threat of terrorist attack. A program like 
this is already in place, namely the High Threat Urban Area grant 
program. There have been two rounds of funding through the High Threat 
Urban Area grants. The first round distributed grant funds to seven 
urban areas; the second round sent grant funds to 30 areas in 19 states 
and the Capitol region, including additional funds to the first seven. 
Do you anticipate that H.R. 3266 would similarly send the totality of 
first responder grant funding to only a few parts of the country?
Answer: I would be opposed to any initiative that targets only certain 
parts of the country. If we expect to build a comprehensive strategy to 
secure the homeland, each and every community of the nation must be a 
strategic part of this national effort.

Question: 5. H.R. 3266 places responsibility for grant management and 
interaction with grantees under the Office of State and Local 
Coordination. Are you concerned that we will lose the expertise built 
over the past several years at the Office of Domestic Preparedness and 
FEMA?
Answer: Because we have had so many natural disasters in Mississippi in 
the last 4 years, I have been and continue to be concerned about the 
future of FEMA and the capability we have built nationwide under their 
leadership. I believe we have to be very cautious in our efforts not to 
undermine the effectiveness of that Agency. As the consolidation of 
grants continues to unfold; I would caution Congress not to eliminate 
those programs that have been so effective such as the Emergency 
Management Performance Grant (EMPG) managed by FEMA, upon every state 
has built their emergency management capability.

Question: 6. Would it be useful for first responder agencies to know 
how much funding is needed to help prepare for terrorist attack over 
the next five years, as provided in the PREPARE Act? Do we need a 
national goal to work towards?
Answer: Yes, states and local governments need to know what the future 
holds if we are going to sustain the capability that has been build so 
far.

Question: 7. Who should determine the needs of our first responders--
analysts in the Information Analysis and Infrastructure Protection 
Directorate of the Department, or the First Responders themselves?
Answer: I believe that first responders should decide what they need 
based on what the IA/IP Directorate tells us the threat is.

                                 <all>

</pre></body></html>
